<html>
<title> - TIER RANKINGS IN THE FIGHT AGAINST HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  TIER RANKINGS IN THE FIGHT AGAINST 

                           HUMAN TRAFFICKING
=======================================================================


                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                        GLOBAL HUMAN RIGHTS, AND

                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 18, 2013

                               __________

                           Serial No. 113-55

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-938                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark Lagon, International Relations and Security 
  chair, Master of Science in Foreign Service Program, Georgetown 
  University (former Ambassador-at-Large for Trafficking in 
  Persons, U.S. Department of State).............................     9
Nguyen Dinh Thang, Ph.D., executive director, Boat People SOS....    20
Ms. Suzanne Scholte, president, North Korea Freedom Coalition....    28
Mr. Brian Campbell, director of Policy and Legal Programs, 
  International Labor Rights Forum...............................    35
Ms. Esther Choe, victim of human trafficking.....................    84
Mr. David Abramowitz, vice president, Policy & Government 
  Relations, Humanity United.....................................    90
Ms. Carol Smolenski, executive director, End Child Prostitution 
  and Child Trafficking-USA......................................   108

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Mark Lagon: Prepared statement.....................    13
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    23
Ms. Suzanne Scholte: Prepared statement..........................    31
Mr. Brian Campbell: Prepared statement...........................    39
Ms. Esther Choe: Prepared statement..............................    87
Mr. David Abramowitz: Prepared statement.........................    94
Ms. Carol Smolenski: Prepared statement..........................   112

                                APPENDIX

Hearing notice...................................................   144
Hearing minutes..................................................   145
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................   146
Mr. David Abramowitz: Material submitted for the record..........   148
Nguyen Dinh Thang, Ph.D.: Material submitted for the record......   152
Ms. Suzanne Scholte: Material submitted for the record...........   159


          TIER RANKINGS IN THE FIGHT AGAINST HUMAN TRAFFICKING

                              ----------                              


                        THURSDAY, APRIL 18, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:12 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order.
    Good afternoon and welcome to this afternoon's hearing on 
the role of tier rankings in the fight against human 
trafficking. Many of you joining us this afternoon have been in 
this fight from the very beginning. From the year 2000, when my 
Trafficking Victims Protection Act of 2000 created not only the 
Office to Monitor and Combat Trafficking in Persons at the 
Department of State, but also the annual TIP Report. At the 
time, I don't think anyone could have predicted that this 
report and the work of the trafficking office would become the 
international gold standard and the primary means of anti-
trafficking accountability around the world. From the halls of 
Parliaments to police stations in remote corners of the world, 
this report is being used to focus anti-trafficking work in 186 
countries on the key areas of prevention, prosecution, and 
protection.
    The fact that it has been so successful is a credit to the 
hard and careful work of the Office to Monitor and Combat 
Trafficking in Persons. Each year this office evaluates whether 
the government of a country is fully complying the minimum 
standards for the elimination of human trafficking or, if not, 
whether the government is making significant efforts to do so. 
The record is laid bare for the world to see and summarized in 
a tier ranking. Tier I countries fully meet the minimum 
standards; Tier II countries do not meet the minimum standards, 
but are making significant efforts to do so; Tier III countries 
do not meet the standards and are not making significant 
efforts to do so. Along with the embarrassment of being listed 
on Tier III, Tier III countries are open to sanction by the 
United States Government.
    Since the TIP Report's inception, more than 100 countries 
have enacted anti-trafficking laws, and many countries have 
taken other steps to required to significantly raise their tier 
rankings, citing the TIP Report as a key factor in their 
increased anti-trafficking response. In the 2003 Trafficking in 
Persons Reauthorization Act, I and my colleagues in Congress 
created the Tier II Watch List. This list was intended to 
encourage anti-trafficking progress in a country that took 
positive anti-trafficking steps late in the evaluation year, 
especially those countries that took last minute measures to 
avoid a Tier III designation. We wanted to reward good faith 
efforts and to encourage them to continue.
    However, some countries made a habit of last minute efforts 
and failed to follow through year after year, gaming the 
system. Consequently, in 2008, Congress created an automatic 
downgrade for any country that had been on the Tier II Watch 
List for 2 years, but had not made enough significant effort to 
go to Tier II. The President can waive a Tier III downgrade for 
an additional 2 years if there is credible evidence that a 
country has a written and sufficiently resourced plan to meet 
the minimum standards.
    The automatic downgrade would protect the integrity of the 
tier system and ensure it worked properly to ensure real 
progress in the fight against human trafficking. It has now 
been 4 years since the 2-year limit or 4 years with a waiver 
limit was instituted. China, Russia, Uzbekistan, the Republic 
of Congo, Iraq, and Azerbaijan have now had at least 4 full 
years of warning that they would face a downgrade to Tier III 
if they did not make significant efforts to prosecute 
traffickers, protect victims, and prevent trafficking. Now 
their time on the Tier II Watch List is up.
    In this hearing today, and it is the first of a series, we 
will take a close look at the records of these countries in 
2012. If these countries have once again failed to make 
significant efforts to meet the minimum standards, the State 
Department must downgrade them or risk undermining the 
credibility and demonstrated power of the TIP Report. I am 
particularly concerned about the Government of China's record. 
The Government of China has been on Tier II Watch List for 8 
consecutive years, in large part because its plan to fight 
human trafficking is inadequate, unevenly implemented, and the 
Government of China has not been making significant efforts to 
comply with minimum standards. Law enforcement in China is 
still not trained to identify or respond properly to sex or 
labor trafficking victims. I have heard reports that local 
police are often unwilling to help parents find missing 
children who may have been enslaved in a local brick kiln, and 
that officials have been known to profit from brick kilns that 
exploit children.
    As we will hear from a brave trafficking survivor today, 
the Government of China continues to forcibly repatriate North 
Korean trafficking victims who face severe punishment, 
including execution, upon their return to North Korea. I would 
note parenthetically that we have had several hearings in this 
subcommittee, and I have chaired them, where we have had 
victims tell that story. We met with the High Commissioner for 
the UNHCR on the issue of sending them back, which obviously 
violates the Refugee Convention, and we have had no progress, 
none whatsoever, in that area.
    Moreover, the Government of China's continued one-child-
per-couple policy has absolutely decimated China's female 
population. As a matter of fact, I mentioned yesterday when 
Secretary Kerry was here that there is a book by Mara 
Hvistendahl in which she points out that because of sex 
selection abortion and the gendercide that has occurred in 
Asia, there are 160 million missing women and girls. That is 
across all of Asia; of course, India and China being the two 
leading. Not only is it a crime of gender and a crime against 
humanity, because it is selecting-out those children because 
they are girls, it also has become a huge magnet for human 
trafficking.
    Tens of millions of girls, as I said, are missing from the 
population of China alone, making China a magnet for sex and 
bride trafficking, as men reach marrying age but cannot find a 
mate. One estimate puts it at 37 million to as much as 50 
million men who cannot find brides right now. And that will not 
change because the demographic nightmare has been in the 
process of being made since the one-child-per-couple policy of 
1979.
    The Government of China is not only failing to address its 
own trafficking problems, but is creating an incentive for 
human trafficking problems in the whole region. The Government 
of Uzbekistan's record is also of great concern, as the 
government itself continues to force hundreds of thousands of 
school-aged children and adults to work in fields during the 
cotton harvest each year. The Government of the Republic of 
Congo, despite making some progress in 2010 with the passage of 
a law that would prevent child trafficking, has failed in the 
last 2 years to convict a single person under the law, despite 
the pervasive child trafficking in their country.
    The Government of Russia has had 9 years of warning, 9 
years without significant change. They, too, should be 
downgraded. I would note parenthetically that I wanted to go to 
Russia just a couple of months ago and was told I couldn't get 
a visa--denied a visa. During the worst days of the Soviet 
Union, when I was going along with Frank Wolf and others into 
gulags, we got visas. Couldn't get a visa just during the 
Lincoln Day, Presidents' Day break. Denied a visa. I am going 
to apply again. One of the top issues we were going to discuss 
was human trafficking.
    The Government of Russia does not have in place a formal 
procedure for identification and referral of trafficking 
victims by law enforcement, labor inspectors, and other 
government officials. The Government of Russia still has not 
established a government body to organize government anti-
trafficking activities, nor does it adequately fund shelters or 
services for victims. Russia's citizens are trafficked from 
Russia to countries all over the globe, as well as within 
Russia, and many are now coming in, particularly labor 
trafficking, to Russia. And the government does not have a 
national trafficking education or prevention plan.
    The Government of Azerbaijan continues to use 
administrative fines for traffickers, allowing traffickers to 
write off the crime of trafficking as a simple business expense 
that is less expensive than hiring their workers.
    The Government of Iraq has been on the Watch List since the 
TIP Report first began to hold them accountable in 2009. Like 
trafficking victims elsewhere in the world, the victims in Iraq 
need protection. Those who are vulnerable to trafficking need 
prevention measures, and traffickers need to be brought to 
justice. We will also be focusing on Vietnam.
    But the importance of accurate tier ratings cannot be 
overstated. Over the last 12 years, we have seen countries 
begin in earnest the hard work of reaching the minimum 
standards after the TIP Report accurately exposed with a Tier 
III rating each country's failure to take significant action 
against human trafficking. I would note parenthetically that 
great friends like Israel and South Korea were Tier III 
countries, and they moved mightily not just to get off the list 
but to clean up the egregious practices that were occurring 
within their countries. By the same token, a premature boost to 
Tier II, such as what occurred in Vietnam last year, may not 
only undermine progress, but fail to inspire any kind of 
action.
    The tier rankings were meant to be and in large part have 
become a powerful tool in the fight against human trafficking. 
I look forward this afternoon to a candid discussion. And we do 
have assembled a great group of experts who are in the know to 
tell us their views, and hopefully the administration will be 
listening.
    I yield to Ms. Bass.
    Ms. Bass. Well, thank you, Mr. Chairman. Once again, I want 
to commend you for your unwavering commitment to end human 
trafficking around the world. Your tireless work on the 
groundbreaking Trafficking Victims Protection Act of 2000 and 
its subsequent reauthorization has been remarkable. It has been 
very important to me to learn about your work on this topic, 
and I look forward to working together to combat human 
trafficking internationally, as well as domestically.
    In 2012, according to the International Labor Organization, 
nearly 21 million individuals worldwide were subjected to 
conditions of human trafficking. Throughout the same year, the 
United Nations reports that trafficking victims have been 
identified by authorities in 118 countries and comprised at 
least 136 nationalities. I appreciate that this hearing has 
been convened today to examine the impact of the State 
Department's Trafficking in Persons Report, or the TIP Report, 
and specifically the tier rankings included therein. The TIP 
Report rankings have undoubtedly proven to be strategic tools 
to incentivize anti-trafficking policies, as well as to hold 
countries accountable for their inaction.
    The William Wilberforce Trafficking Victims Protection Act 
of 2008 smartly limits the amount of time a country could 
remain on the special Tier II Watch List. And I agree, it is 
critical that the United States closely examine the countries 
that have exhausted their time on the Tier II list. An up-and-
down tier determination reflecting the best interests of the 
victims and survivors of human trafficking will help maintain 
the integrity and power of the TIP Report.
    In 2010, for the first time, the TIP Report also evaluated 
our own Nation's efforts to address human trafficking. While 
the assessment has been helpful in highlighting certain types 
of trafficking, it does not include alarming data that was 
recently reported about domestic minor victims. This issue is 
particularly important to me because it greatly impacts my city 
of Los Angeles and our Nation's foster youth, a vulnerable yet 
resilient population that we pledge to protect and to care for. 
So, for the record, in my congressional district, hundreds of 
domestic youth are commercially exploited each year. In 2012, 
Los Angeles County reported at least 60 percent of the youth 
identified as victims of sex trafficking were in the foster 
care system. Similarly alarming statistics have emerged from 
jurisdictions across the country. In Connecticut, 98 percent of 
child victims of sex trafficking were child welfare involved, 
85 percent in New York, 70 percent in Florida were also in the 
child welfare system.
    Worse still, recent headlines indicate that pimps are now 
targeting foster youth group homes as hubs to recruit 
vulnerable girls, and increasingly gangs are engaged in 
commercial sexual exploitation. Yet few child welfare employees 
have been adequately trained or prepared to respond to child 
victims of trafficking, and fewer still have incorporated 
policies, protocols, and case management techniques to serve 
this population appropriately. One young survivor shared with 
me that she felt that our foster care system actually set her 
up to be trafficked, because she said that while she was moved 
from foster home to foster home, it wasn't until she was 
recruited by a pimp that she actually felt that someone cared 
about her. And that is a sad statement to say about our system.
    Unfortunately, this story is far too common. In an effort 
to drastically decrease the number of foster youth who 
participate in this horrible exploitation, I plan to 
reintroduce the bipartisan Strengthening Child Welfare Response 
to Trafficking Act, along with my colleague on the 
subcommittee, Representative Tom Marino. The bill will provide 
child welfare employees with appropriate tools to document, 
identify, educate, and counsel child victims of trafficking and 
those at risk, require child welfare agencies to report the 
numbers of victims of trafficking in foster care, as well as 
their plans to combat trafficking to the Federal Government.
    This is just one of the strategies that we should explore 
to address human trafficking domestically. In fact, the White 
House, in conjunction with the Department of Health and Human 
Services, Homeland Security, and the Justice Department 
recently released the Federal Strategic Action Plan on Services 
for Victims of Human Trafficking. This plan aims to create a 
more coordinated victim services network where identified 
victims of human trafficking have access to the full array of 
services needed for recovery. And the recent reauthorization of 
the Trafficking Victims Protection Act, although not perfect, 
solidified the ongoing bipartisan commitment of the United 
States to end human trafficking.
    During this hearing, I look forward to further exploring 
the impact and specifics of the recently reauthorized law. I am 
also interested in discussing strategies to address specific 
types of trafficking, both domestic and abroad, while embracing 
an inclusive approach that acknowledges that human trafficking 
affects U.S. citizens and foreign nationals, as well as 
millions of adults and children, men and women worldwide, who 
are victimized across a wide range of commercial sex and forced 
labor schemes.
    In closing, I would like to recognize and thank our 
witnesses today. Your leadership in combating trafficking is 
inspiring and has truly made a difference throughout the world. 
I look forward to hearing your testimony today and gaining a 
better understanding of where the gaps in our effort to end 
human trafficking may exist.
    Mr. Smith. Thank you very much for your statement.
    I would like to now yield to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    And thank each of you for being here today to testify and 
obviously on this very important topic. We have had a number of 
hearings on this particular issue, and none more important than 
today's hearing where we talk about how we identify and how we 
address this issue, not only as a Nation, but as the State 
Department grapples with this particular issue on how to 
integrate this as part of their ongoing strategy with 
negotiations with other countries.
    And yet here we are talking about human trafficking, and we 
must find some standard to be able to tie the economic interest 
globally that we have. We would not tolerate this type of 
behavior with our own companies here in the United States, and 
yet we seem to turn a blind eye to it internationally. Even as 
recent yesterday, with Secretary Kerry here speaking and 
testifying, we talked about, one of my colleagues opposite 
brought up, is there a standard. And the response to that was 
somewhat troubling in that there was not a standard there when 
we talk about ongoing negotiations.
    And so what I am interested in hearing from each one of you 
is how Congress can get involved and perhaps be the bad guy 
here. We understand the State Department has a tough job to do 
as they negotiate. But we need to put forth legislation. And as 
the ranking member was just pointing out, there is a bipartisan 
resolve on solving this and making sure that human trafficking 
is not something that we not only talk about doing away with, 
but that we are active in doing that. And I, for one, am 
committed to working with each one of you to do just that.
    I yield back, Mr. Chairman. Thank you so much.
    Mr. Smith. Mr. Meadows, thank you so much.
    Mr. Bera.
    Mr. Bera. Mr. Chairman, thank you for calling this hearing 
on an important issue of human trafficking. I am pleased that 
our subcommittee is calling attention to this tragic and 
persistent problem.
    And thank you to the witnesses for being here and helping 
elevate the conversation. It is absolutely essential that we 
take a stand.
    And despite efforts by the United States and the 
international community to eliminate trafficking, it continues 
to occur in virtually every country in the world. According to 
the International Labor Organization, some 20.9 million 
individuals worldwide in 2012 were likely subjected to 
conditions of human trafficking. That is unacceptable.
    Women and children are especially vulnerable. In 2009, it 
was estimated that 1.2 million children were trafficked 
worldwide for sexual exploitation, including prostitution or 
the production of sexually abusive images. Again, that is 
intolerable. As a planet and as a community of nations, we 
can't tolerate that.
    Fortunately, there are individuals taking a stand against 
this heinous crime. And again, Mr. Chairman, I applaud you for 
making this a focus of our committee.
    Earlier this month, I had the opportunity to meet three 
brothers from New Delhi, Ravi, Rishi and Nishi Kant. They were 
honored by Vice President Biden at the Vital Voices Global 
Leadership Awards held at the Kennedy Center for their 
humanitarian work and efforts to end violence and human 
trafficking. In 2001, the three brothers founded Shakti Vahini, 
an organization that works for the rights of women and children 
in India. Over the past decade, Shakti Vahini has rescued more 
than 2,000 people, 70 percent of whom were children.
    The brothers have combined their unique skills. Ravi is a 
supreme court advocate and works on legal issues, Nishi is a 
licensed social worker, and Rishi handles public affairs and 
works to garner media attention about their important work to 
help build a highly successful social service organization.
    According to the Indian Government, 19,524 minors went 
missing in Kolkata in 2011, of which only 7,227 were traced; 
8,725 were women. Most of the missing persons end up in 
prostitution, forced marriages, or begging rackets. The 
National Human Rights Commission of India reports that only 10 
percent of human trafficking in India is international, while 
almost 90 percent is interstate. Nearly 40,000 children are 
abducted every year, of which 11,000 remain untraced. 
Unacceptable.
    For more than a decade, these three brothers have been 
fighting violence against women, honor killings, human 
trafficking, child labor, and slavery. They have proposed new 
laws while demanding that current rules be enforced. They have 
also improved access to social services and empowered victims 
to take action. Shakti Vahini has helped train more than 6,000 
policemen and has helped develop specialized training units 
that can work closely with law enforcement. Thanks to the hard 
work of the Kants, India's Parliament has passed a broad law 
last month making stalking and sexual harassment a crime.
    We still have much more to do. The Kants believe they are 
witnessing a sea change not only for the victims of violent 
rapes, but also for victims of human trafficking. I was proud 
to meet Ravi, Rishi, and Nishi Kant to discuss their work to 
combat violence against women. Their organization Shakti Vahini 
is a great example of how men can be leaders in the fight to 
end violence again women.
    I am interested to hear the testimony of our witnesses and 
learn how the State Department's Trafficking in Persons Report 
can be improved and what we can do to help fight this horrible 
injustice. And, again, I applaud you, Mr. Chairman, for 
shedding light on this. Thank you. I yield back.
    Mr. Smith. I appreciate it very much.
    I would like to now yield to Mr. Stockman.
    Mr. Stockman. Thank you, Mr. Chairman. I'm just going to 
briefly say this, that I was reading in National Geographic 
that there is actually more slavery now than there was in the 
1800s, whether it is the Lord's Resistance Army or other 
Iranian or around the world. So I am anxious to hear what you 
have to say, and really appreciate you guys stepping forward. I 
wish this was a much more popular cause than it is. Thank you.
    Mr. Smith. Thank you very much, Mr. Stockman.
    I would like to now introduce our very distinguished panel. 
And, without objection, your full statements and any additional 
materials you would like to be made a part of the record shall 
be done so.
    Beginning with Ambassador Mark Lagon. Ambassador Lagon is 
chair for International Relations and Security and a professor 
in the practice of international affairs at Georgetown 
University's Master of Science in Foreign Service Program, and 
is an adjunct senior fellow for human rights at the Council on 
Foreign Relations. Previously, he served in the Bureau of 
International Organization Affairs at the U.S. Department of 
State as Deputy Assistant Secretary, with the lead 
responsibility for the U.N.-related human rights and 
humanitarian issues, U.N. reform and outreach. He was a member 
of Secretary of State Colin Powell's policy planning staff. 
From 2007 to 2009, as U.S. Ambassador-at-Large, Ambassador 
Lagon directed the Office to Monitor and Combat Trafficking in 
Persons at the U.S. Department of State. As such, he chaired by 
statute, the Senior Policy Operating Group coordinating all 
U.S. agency efforts to combat human trafficking domestically 
and internationally. He was also a staffer at the Senate 
Foreign Relations Committee. And he and--I know Mr. Abramowitz 
knows this very well, as he was also a key player in that 
legislation, working on the Senate side--worked very hard to 
make sure that the TIP legislation passed in the first place, 
because it had very significant opposition.
    We will then hear from Dr. Nguyen Dinh Thang, who came to 
the United States as a refugee from Vietnam in 1979. After 
earning his Ph.D., he began volunteering with Boat People SOS 
in 1998, now serving as the head of Boat People SOS. Dr. Thang 
has worked for the past 25 years to resettle more than 20,000 
boat people to the U.S. after they escaped from Vietnam and has 
worked to rescue more than 4,000 victims of human trafficking. 
He has received numerous awards for his extensive work on human 
rights. Dr. Thang travels to Asia frequently, where he 
documents ongoing human rights abuses and works to help rescue 
victims.
    We will then hear from Ms. Suzanne Scholte, who is the 
president of the North Korea Freedom Coalition, who does 
extensive work focused on protecting human rights in North 
Korea. She was recognized in 2010 with the Walter Judd Freedom 
Award and in 2008 with the Seoul Peace Prize. Ms. Scholte has 
helped rescue hundreds of North Korean refugees and helped 
bring defectors to speak to the United States. In addition, she 
has participated in hearings before this committee and other 
committees of the Congress on North Korea and has brought in 
trafficking victims who have told harrowing stories about how 
they were forcibly repatriated to North Korea from China and 
tales of unbelievable courage, but also of terrible degradation 
by government officials.
    We will then hear from Mr. Brian Campbell, who is 
responsible for the International Labor Rights Forum's policy, 
legal and legislative advocacy, and runs its campaign to end 
child labor. For several years, Brian has had a leading role in 
advocating for an end to state-sponsored forced labor in 
Uzbekistan's cotton industry, and he works closely with child 
labor NGO partners in Uzbekistan to elevate the role of civil 
society in the country. He works to promote enforcement of 
existing laws, policies, and standards to protect workers' core 
labor rights, and to develop and improve legal and soft law 
instruments.
    We will then hear from Ms. Esther Choe, a victim of human 
trafficking. She was a textile worker in North Korea when she 
learned that she could make 20 times the amount of her current 
pay caring for children in China, so she decided to go to work 
for a short period of time. She was subsequently caught in 
human trafficking and was sold as a ``wife'' to a Chinese man 
who locked her up. After she escaped, with no one to help her, 
she went back to the trafficker who sold her and pled for him 
to help her get back home. But, instead, he sold her again to 
another Chinese man. Through the help of American Pastor 
Phillip Buck, she was able to come under the care of the UNHCR 
and eventually made it to the United States in 2008.
    We then welcome back a member of what used to be this 
staff, sitting right over here, David Abramowitz, who is vice 
president for Policy and Government Affairs at Humanity United, 
responsible for informing their policy-based advocacy 
activities, leading outreach efforts in the U.S. Government, 
multilateral institutions and international NGOs, and providing 
strategic counsel and advice to a broad range of grantees. 
Before joining Humanity United, Mr. Abramowitz worked for the 
House Committee on Foreign Affairs as chief counsel, working 
diligently on the Trafficking Victims Protection Act of 2000, 
later reauthorizations, as well as the 2008 legislation, and 
many other foreign policy initiatives that this committee 
undertook. Prior to his work in the House, Mr. Abramowitz 
worked for the U.S. Department of State. And it is always good 
to have a member of the staff back who is so knowledgeable and 
so effective.
    We then will hear from Ms. Carol Smolenski, who is the 
executive director and one of the founders of ECPAT, or End 
Child Prostitution and Trafficking-USA, and has been working in 
the field of children's rights for over 20 years. She is a 
longtime, nationally recognized leader working to stop the 
commercial sexual exploitation and trafficking of children. She 
has overseen the developments of numerous projects aimed at 
stopping the commercial sexual exploitation and trafficking of 
children. She has spoken at numerous conferences, presented 
testimony in venues ranging from the New York City Council to 
the United States Congress and to the United Nations.
    And welcome all.
    Ambassador, if you could begin.

STATEMENT OF THE HONORABLE MARK LAGON, INTERNATIONAL RELATIONS 
   AND SECURITY CHAIR, MASTER OF SCIENCE IN FOREIGN SERVICE 
PROGRAM, GEORGETOWN UNIVERSITY (FORMER AMBASSADOR-AT-LARGE FOR 
       TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF STATE)

    Ambassador Lagon. Thank you very much for inviting me, and 
with Representative Bass for welcoming me to offer my 
observations.
    Mr. Chairman, you played a central role in equipping the 
State Department's Office to Monitor and Combat Trafficking in 
Persons with the tools to elicit cooperation from other 
countries. And as a primary author of the Trafficking Victims 
Protection Act and multiple reauthorizations, past victims of 
human trafficking, potential victims of human trafficking, and 
people like me, who have worked as diplomats in this function 
have you to thank.
    The TVPA works because of candor and tough love. And so 
when I was the Ambassador-at-Large to Combat Human Trafficking, 
I was asked by Democrats and Republicans alike in the Congress 
what I thought of the possibility of nations being able to stay 
indefinitely on the Tier II Watch List. I am delighted that a 
time limit was placed on that because a ``watch list'' is 
meaningless if there is no palpable prospect for a downgrade.
    Now, since the time that that was put in place in the 2008 
reauthorization, one case that is quite striking was that of 
India, which faced a legislative time limit on its Tier II 
Watch List ranking. The State Department upgraded India to Tier 
II in 2011. And while there have been veritable advances on 
national law establishing that bonded labor is indeed a form of 
human trafficking and some intensified efforts at the state 
level in India, my own suspicion is that strategic reasons had 
as much to do with this upgrade as the issues on the merits. 
When I was confirmed by the Senate to be the Ambassador-at-
Large, I learned that just days earlier a decision had been 
made at the very top level of the State Department to pull back 
from giving a Tier III ranking to India, accounting for its 
importance geostrategically.
    One other case I want to mention besides the ones that 
Chairman Smith has highlighted here is in the heart of the 
Western world, and far higher in the rankings: The Netherlands. 
The Netherlands deserves some praise: Praise for victim 
identification, prosecution of traffickers, and not harming or 
punishing victims. But having a legal prostitution policy and 
no accountability for sex buyers sends exactly the wrong 
signal, and creates an enabling environment for the worst sex 
trafficking. Moreover, the TVPA is very clear about 
accountability for officials of governments that are complicit 
in trafficking. And I am troubled by the case of the retired 
Dutch Justice Ministry Secretary General Joris Demmink, who is 
alleged to have raped two males in Turkey when they were 
minors. That kind of thing needs to be looked at seriously, 
and, as a result, so should the Netherlands' ranking.
    Now, of the six nations that are facing their time limit on 
the Tier II Watch List, first and foremost is China. I am 
delighted that Suzanne Scholte is here to address issues that 
relate to North Koreans who flee the horrible situation there, 
and because of how China treats them, they end up being human 
trafficking victims in all too many cases. A couple of the 
members of the committee have referred to the International 
Labor Organization report indicating that 21 million people in 
the world are human trafficking victims. Notably, that study 
points out that 10 percent or 2.2 million are actually in 
forced labor implemented by governments and militaries and 
armed groups. Well, in China, a large number of those 2.2 
million are, in fact, in the laogai, in the ``reeducation for 
labor'' camps.
    Among the standards that are set in the State Department's 
report about what key steps should be taken by nations, the top 
one, the first one, is closing those reeducation for labor 
camps. That is where one should look: The paragraph in each 
annual report that indicates the recommendations of the 
Department. That is the nub of what is being asked of a 
government and it is delivered quietly in a demarche, as well 
as publicly. That, and the national action plans that states 
have taken on as the price of their delay of getting Tier III, 
should be the grounds for looking at whether they deserve to 
stay off Tier III. China has been on Tier III for 8 years, and 
whether it is based on lack of transparency of government 
efforts, not even publishing its national action plan, or the 
laogai, it deserves to be seriously considered to Tier III.
    Of the nations we talk about today, Russia is the one that 
is most clearly moving backwards on human trafficking. The 
demographic and economic situation has changed since the time 
of the Trafficking Victims Protection Act. Back then, in the 
year 2000, the pattern was females migrating within and from 
Russia into sex trafficking. The main issue now is people 
moving into or within Russia for labor trafficking. And so, as 
the State Department has argued, it would be essential for the 
Russians to look into improving victim identification and 
victim assistance.
    Bill Burns, the Deputy Secretary of State, was Ambassador 
to Russia when I visited as Ambassador. He told me how Russia 
considers this an immigration enforcement problem, not a human 
rights problem. He is going to adjudicate differences in the 
Department on this matter.
    Azerbaijan has been on the Tier II Watch List for 5 years 
running. Most appalling is the fact that their government has 
been found to be complicit in labor and sex trafficking, and an 
Internal Affairs Anti-Trafficking Department has actually been 
found to be corrupt and part of the problem.
    When in 2008, I was the Ambassador at the State Department, 
Moldova was found to be also suffering from complicity of its 
own anti-trafficking unit, which was funded by the United 
States. It was put on Tier III, and that really got their 
attention. We should look at Azerbaijan in the same regard.
    Of all the nations that we are talking about today, the 
most appalling case to me, and it is in the neighborhood of the 
former Soviet Union as well, is Uzbekistan, with its vestige of 
Soviet command style economic practices of compelling younger 
people to pick cotton. Think about this. Our history of slavery 
is based on cotton picking. It would be wrong for the United 
States to slough off the issue of forced labor. And while 
Uzbekistan has in its most recent harvest moved up the age of 
those who have been compelled to work and reduced the number of 
people under the age of 16 or 17, forced labor is still going 
on there. No alleged strategic reasons of the Northern 
Distribution Network for supplying troops that we are pulling 
out of Afghanistan anyway should be an excuse for not 
downgrading Uzbekistan. They should let ILO inspectors come in 
and see what they are doing as a Party to two ILO conventions 
on child and forced labor.
    So, too, Iraq should not be let off the hook. Indeed, there 
has been no one who has been convicted of trafficking in the 
last year there. They need to put in place legislation. And 
other allies indeed have had their minds focused by a Tier III 
ranking. There is no reason why we would necessarily have to 
put economic sanctions on them for getting Tier III.
    And, finally, I want to address the Republic of Congo, 
where, for instance, child prostitution is rampant. They have a 
2010 Child Protection Code, and yet they have not convicted a 
single person with it. They don't have any government 
coordination between their government ministries to speak of, 
and they desperately need to ratify the U.N. Palermo Protocol. 
They, too, need to be seriously considered for Tier III status.
    The scholars Beth Simmons of Harvard University and Judith 
Kelley of Duke University have established by rigorous 
quantitative methods that the rankings in the TIP Report have 
actually driven countries to change their laws. That is 
dependent upon tough love. We need to make sure that the 
provisions that exist in the law that give the State Department 
some flexibility to figure out which tools are going to be most 
useful to elicit the most cooperation don't let countries off 
the hook. And that worries me when the Senate-authored 
Trafficking Victims Protection Act reauthorization of 2013 adds 
well-intentioned provisions about countries taking part in 
multilateral fora and having partnerships with NGOs and 
businesses being given credit for that. I hope there won't be 
grade inflation. As a professor at Georgetown, the last thing 
that countries deserve is grade inflation. If partnerships are 
more like cotton candy--pretty, sweet, fluffy, and empty--
instead of transformative ones, they shouldn't get higher 
rankings.
    It would undercut U.S. and universal values of dignity, as 
well as undercut the great success story that you helped launch 
at this end of Pennsylvania Avenue of U.S. leverage and public 
diplomacy if we weren't to make the calls on the merits about 
whether countries are degrading people or helping prevent that.
    Thank you.
    Mr. Smith. Ambassador Lagon, thank you very much for your 
comprehensive testimony and your leadership on this issue.
    [The prepared statement of Ambassador Lagon follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Thang.

STATEMENT OF NGUYEN DINH THANG, PH.D., EXECUTIVE DIRECTOR, BOAT 
                           PEOPLE SOS

    Mr. Thang. Mr. Chairman and Madam Ranking Member and all 
the distinguished members of the subcommittee, today I speak on 
behalf of the Coalition to Abolish Modern Day Slavery in Asia, 
or CAMSA, which was co-founded in February 2008 by Boat People 
SOS and other international organizations. Over the past 5 
years, we have rescued or assisted over 4,000 victims of labor 
and sex trafficking in different destination countries, 
including 300 Vietnamese in Russia.
    Of all the victims that we have assisted, these 300 in 
Russia have faced the most horrid slave-like conditions and the 
near impossibility of escape. And note that all the 
perpetrators in these cases are Vietnamese nationals who enjoy 
the backing and protection of officials at the Vietnamese 
Embassy in Moscow. And therefore, even though I focus on Russia 
at this hearing, I would like to point out that there is a 
clear and direct linkage to Vietnam as a source country.
    Now, the number of Vietnamese victims in Russia could be in 
the tens of thousands. According to our reliable sources in 
Russia, there are approximately 3,000, yes, 3,000 Vietnamese-
owned sweatshops in and around Moscow alone, each employing 
from a few to over 100 workers. Many of these workers are 
subjected to forced labor.
    There are also numerous brothels run by Vietnamese 
nationals in and around Moscow. They lure young Vietnamese 
women to Russia with a promise of employment and then force 
them into prostitution.
    Most victims that we have identified have been held captive 
and incommunicado for 3, 4, or 5 years. The factories, these 
garment factories, operate out of formerly abandoned Soviet-era 
military buildings located in isolated areas frequently 
patrolled by Russian security guards. Usually after 15 hours, 
18 hours, or sometimes 20 hours of work during the day, the 
victims would be herded into rooms without windows and locked 
on the outside. Most of them have developed skin diseases for 
lack of sunlight. One victim reported that she was allowed to 
get out into the backyard of the building only twice over 2 
years. Those were the only times that she could breathe fresh 
air.
    Last April, a fire broke out at a sweatshop killing 12 
Vietnamese victims because they could not escape. And then 5 
months later, another fire broke out in another sweatshop near 
Moscow killing 14 Vietnamese migrant workers because they, too, 
couldn't escape. In very rare instances where victims manage to 
escape, there is no place for them to hide, no place for them 
to go to for help. There is no shelter. There are no NGO 
service providers coming to their assistance. There is no 
government agency that would protect them.
    Two months ago, four Vietnamese victims of sex trafficking, 
all very young girls, ran away from their traffickers, and one 
of them had a sister who testified here before this 
subcommittee just last week. They rent a small room with 
whatever little money they had at a private home and called us 
for help. We tried to contact numerous Russian NGOs that we had 
known for years, in 2009, only to find out that none of them 
were in operation. They had all closed operation because they 
couldn't operate in such a hostile environment. The four 
escapees called the Vietnamese Embassy, but it turned out the 
Vietnamese Embassy worked hand in hand with the traffickers. 
And soon they were all recaptured by the traffickers, beaten 
savagely, and forced back into prostitution.
    It is a known fact among Vietnamese in Moscow that the 
local Russian police work for the traffickers. There is even a 
name for that, ``bao ke,'' literally translated into 
``insurers.'' So these police officers are insurers, meaning 
that the police would act at the request of the traffickers to 
ensure that noncooperating victims will cooperate.
    In February of last year, two victims, husband and wife, 
escaped their sweatshop, owned by the traffickers. The local 
police had an arrest warrant on them on a fabricated charge of 
fighting. A month later, the police caught them and delivered 
them back to the traffickers instead of to the police station 
for investigation, and they were tortured for 2 days, fined 
$2,000 for the escape, and forced back to work. We reported 
this case, which involved a total of 102 victims, to the 
Federal Investigative Committee of the Russian Federation. They 
responded relatively promptly and promised investigation. Soon 
labor inspectors visited the sweatshop,fined the employer for 
not having valid work permits for the employees, and left 
without talking to any of the victims.
    We then wrote another letter to the Investigative Committee 
alerting them that the owner had changed his company's name and 
had relocated the factory to another location along with all 
the victims. Months later, actually, late January of this year, 
the Investigative Committee wrote to us again informing us that 
the local police had talked to the landlord at the old facility 
and found no sweatshop. Case closed. Most of the victims are 
still trapped in Russia.
    In 2003 and 2004 the Russian Federation did issue a new 
legal framework to fight human trafficking. However, that 
doesn't mean much if the victims of human trafficking 
themselves are rarely identified as such by law enforcers, even 
in cases with overwhelming evidence. Last year, we reported to 
Russia's Investigative Committee another labor trafficking 
case, this time involving 150 victims who were left to starve 
after they stopped work to protest slave-like conditions. The 
BBC news service managed to enter the factory and interview the 
victims with lots of evidence. Weeks later, the Russian police 
mounted a raid. All victims were rescued and repatriated except 
five. These were the five strike leaders. We later found out 
that just prior to the raid the trafficker had had the local 
police send them to a local prison. And many weeks later, they 
were quietly repatriated to Vietnam. There was no investigation 
into the allegations of human trafficking despite a lot of 
evidence on tape.
    Even though my experience is limited to Vietnamese victims 
of labor and sex trafficking in Russia, the problems they face 
and we face in trying to rescue them appear to be systemic in 
nature. I don't foresee any improvements in the near future. I 
don't see how Russia could be elevated to Tier II. And since 
all these cases involve victims, some from Vietnam, trafficked 
from Vietnam to Russia, I would like to express my surprise and 
amazement that Vietnam was taken off the Tier II Watch List 
last year without demonstrating any real progress. And I would 
like to echo my concern--I mean Ambassador Lagon's concern 
here--that taking off countries from the Watch List might be an 
evasion tactic that would allow them to evade the automatic 
drop to Tier III after 4 years.
    And with that, I would call to this subcommittee's 
attention not only human trafficking in Russia, but also from 
Vietnam to Russia and to other countries. Thank you.
    Mr. Smith. Dr. Thang, thank you so very much for your 
testimony and leadership.
    [The prepared statement of Mr. Thang follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would like to just say, without objection, the 
statement of the full committee Chairman Ed Royce will be 
submitted for the record. And Chairman Royce was here earlier 
on and is a great supporter of all our efforts and the efforts 
of Congress to combat this terrible human rights abuse called 
human trafficking. So, without objection, his statement is made 
a part of the record.
    Ms. Scholte, if you could proceed.

   STATEMENT OF MS. SUZANNE SCHOLTE, PRESIDENT, NORTH KOREA 
                       FREEDOM COALITION

    Ms. Scholte. Congressman Smith, I want to thank you so much 
for your leadership on this issue.
    And thank you, Congressman Meadows, for being here and 
showing your interest in this issue of fighting human 
trafficking.
    In your hearing announcement you mentioned the halls of 
Parliament to small police stations in remote corners of the 
world to consider how governments are dealing with human 
trafficking. I would like to make clear that it is the 
respective Government of China and its small police stations 
that are not only failing to stop human trafficking in China 
but are, in fact, causing human trafficking. I am specifically 
referring to the North Korean refugees that have fled to China 
and the fact that China has refused to abide by its 
international treaty obligations regarding these refugees.
    North Koreans face a well-founded fear of persecution when 
they are repatriated back to North Korea, which clearly 
obligates China not to force them back to a country where they 
will most certainly be tortured, most certainly be imprisoned, 
and in some cases even executed.
    Regarding the small police stations, I am specifically 
referring to the police station in the provinces near the 
China-North Korea border that are offering rewards for those 
turning in North Korean refugees and severe punishment of their 
own citizens if it is known that they have helped North Korean 
refugees but failed to turn them in to the police. I submit 
with my testimony a photograph and a translation of just such 
an order from the Yanbian police station from last month, March 
2013, which was obtained by Donga Ilbo reporter Joo Sung Ha.
    China's repatriation policy has created the environment for 
human trafficking because it puts these refugees, who are 
mostly women, at the complete mercy of the traffickers. I want 
to be clear that it is not the citizens of China that are 
causing this problem, but the Government of China. In fact, I 
fervently believe that the citizens of China are sympathetic 
and appalled by their government's actions. The Chinese people 
are increasingly complaining about their government's continued 
support for the Kim Jong Un regime, and Chinese citizens have 
been jailed for helping North Korean refugees. We also hear 
stories from North Koreans jailed in China who said Chinese 
police smuggled medicine and food for them, and in some cases 
even allowed them to escape.
    Two main factors helped create the environment for this 
trafficking problem. The first is China's one-child policy, 
which we discussed earlier, which has led to a shortage of 
women. And the second is the chronic hunger situation in North 
Korea. North Korean refugees cross the China-North Korean 
border to try to find work and food to feed their starving 
families. Understandably, China started labeling them economic 
migrants. Yet the moment a North Korean enters China, they fit 
the definition of asylum seeker because it is a crime 
punishable by death in North Korea for their citizens to leave 
their country without permission.
    Rather than working with the UNHCR, who has an office in 
Beijing, China has chosen instead to work with the Democratic 
People's Republic of Korea to force these refugees back to 
North Korea. But it is even worse than that. China authorities 
are literally marking North Koreans for death. According to Kim 
Seong Min of Free North Korea Radio, China began separating 
North Korean defectors into two groups, based on whether they 
were trying to escape to South Korea, starting in at least 
2008. We suspect this was part of the crackdown before the 
Beijing Olympics as China feared the world would see their 
cruel treatment of these refugees.
    Joo Sung Ha, the Donga Ilbo reporter, and Kim Yong Hwa, an 
activist recently jailed in China, revealed how China used a 
different color stamp on the interrogation papers indicating 
which refugees were trying get to South Korea. Because of this 
collusion, the Chinese Government is complicit in premeditated 
murder because it knows that North Koreans trying to get to 
South Korea will be executed when they are forced back to North 
Korea.
    China's brutal and unlawful repatriation policy has led to 
the exploitation of North Korean women who in their 
vulnerability become the victims of traffickers. Americans, 
Japanese, Chinese, and South Korean citizens have all been 
imprisoned in China for helping North Koreans. And just last 
year, South Korean citizen Kim Young Hwan was imprisoned and 
tortured in China, while a South Korean missionary, Kim Chang-
Whan, was murdered by North Korean agents, and another, Ho-Bin 
Kang, survived an assassination attempt, only to be killed last 
May in a suspicious head-on car crash.
    How ironic that China will allow North Korean assassins to 
operate freely in its country, hunting down refugees and 
assassinating humanitarians, but it will not allow the UNHCR 
any access to these refugees.
    There is also a suspicious incident that happened to a 
Chinese citizen last summer. The father of Kim Do Hyeon was 
contacted and told to claim the body of his son and daughter-
in-law. Kim and his wife had been taken in for interrogation by 
the Changchun police when Kim was caught in the process of 
trying to rescue five North Korean refugees.
    I want to cite just a few examples of North Korean women I 
have interviewed. Mrs. Bahng brought her children to China 
because they were starving to death. The moment she crossed the 
border, she was seized by a trafficker and taken to be sold at 
a market for North Korean women, where the traffickers describe 
the North Korean women as pigs. She was sold as the best pig 
for $586. Before she eventually escaped and made it to South 
Korea, she had been sold as a wife, a so-called wife, three 
times.
    In the case of Mrs. Kim, she was lured out of North Korea 
by a trafficking ring. She was told a job awaited her as a 
nanny in China. But the moment she got to China, a hood was 
placed over her head and she was taken to a trafficking market 
where she was sold to a Chinese man where she said she lived a 
life of hell.
    These so-called wives live with a constant threat that if 
they do not do what their so-called husbands demand, they will 
be turned in to police and repatriated to North Korea. North 
Korean women are also sold into brothels, so-called massage 
parlors. Other North Korean females end up being forced to do 
Internet pornography. I brought a witness with me today who 
will share her own personal story about what happened to her.
    I would also like to bring to the committee's attention a 
publication by the Committee for Human Rights in North Korea 
entitled, ``Lives for Sale: Personal Accounts of Women Fleeing 
North Korea to China.''
    We now have a new President of China, and we hope that 
President Xi Jinping will reverse this policy to solve this 
human trafficking issue. It is absolutely in China's best 
interest to do this for several reasons. First of all, China's 
repatriation policy is not only leading to the trafficking of 
North Korean women, it is prolonging the North Korean refugee 
crisis. China's actions are ensuring that there will always be 
refugees trying to escape North Korea by relieving any pressure 
on the Kim Jong Un regime to adopt basic reforms that would 
create a better life in North Korea so that people did not want 
to flee. Second of all, China's future would be much better for 
its own people if it works with South Korea rather than 
continues to kowtow to the dictator in North Korea. The two 
countries celebrated the 20th anniversary of their diplomatic 
ties last year, and they enjoy a robust trade relationship that 
is expected to top $300 billion annually by 2015. Third, all 
the remedies for resolving this issue are immediately at hand 
to ensure that no burden falls on China, including the fact 
that the UNHCR has an office in Beijing, and there has been a 
strong commitment by South Korea, the United States, and other 
countries to resettle North Koreans that have fled to China. 
Finally, as I mentioned earlier, the Chinese people are 
increasingly questioning their government's support for Kim 
Jong Un. In fact, Deng Yuwen, who is the editor of Study Times, 
the journal of the Communist Party's Central Party School, 
actually wrote an article stating that China should give up on 
Pyongyang and press for the reunification of the Korean 
Peninsula.
    The 10th annual North Korea Freedom Week is coming up later 
this month, and in coordination with that event we are 
organizing a worldwide North Korean Refugee Awareness Day and 
calling upon citizens around the world to send petitions to 
President Xi requesting that China change their policy toward 
North Korean refugees. I hope that the United States Congress 
will join us in this appeal. I just want to close to say this 
is a perfect opportunity for us to assure China's new President 
we want to work with China to end the trafficking of North 
Korean women and help resolve this refugee crisis in accordance 
with international law.
    Thank you.
    Mr. Smith. Ms. Scholte, thank you so very much.
    [The prepared statement of Ms. Scholte follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Campbell.

 STATEMENT OF MR. BRIAN CAMPBELL, DIRECTOR OF POLICY AND LEGAL 
           PROGRAMS, INTERNATIONAL LABOR RIGHTS FORUM

    Mr. Campbell. Mr. Chairman, Ranking Member Bass, thank you 
for the opportunity to testify today. While I am here 
representing the International Labor Rights Forum, as a member 
of the Cotton Campaign I hope to share the collective voice of 
our members of the Cotton Campaign, which is a global coalition 
of companies, human rights NGOs, industry organizations, 
investors, and trade unions coalesced to end the forced labor 
of children and adults in the cotton sector of Uzbekistan. But 
more importantly, I hope to share with you as best I can the 
collective voice of victims of forced labor in Uzbekistan, 
especially since they cannot be here safely to testify today.
    In 2012, the Government of Uzbekistan continued to forcibly 
mobilize farmers, adults, and children to grow and harvest 
cotton on a widespread scale. The government sets the 
production target each spring. This number is then broken down 
by region, and the district governors are responsible for 
making sure that the delivery quota is filled, including by 
using forced mobilization of farmers to meet the share of the 
government-imposed cotton quota.
    The U.S. Embassy has reported that virtually all farms in 
Uzbekistan are still tied to the state-order system, which 
means that all cotton is produced under the state-order system 
of forced labor. Each province and region of Uzbekistan has an 
established infrastructure, complete with police enforcement, 
that monitors farms, schools, and mandates teachers and 
businesses to mobilize children and adults. Once the cotton is 
ready for harvesting, the children and adults are sent to the 
fields.
    In 2012, authorities enforced cotton production quotas on 
farmers and forced children as young as 10 years old to help 
with the harvest under the threat of punishment. Now, while the 
number of young children appears to have decreased over the 
2012 harvest, we saw a troubling increase in the number of 
older children and adults who were being forced en masse 
nationwide to pick cotton. And when I say older children, I 
mean very specifically children who are 15 years old to 18 
years old. These aren't adults. And so overall the problem of 
forced child labor still exists on a widespread scale.
    If they refuse to participate, they face expulsion or other 
forms of coercion. They live under appalling conditions. They 
lack adequate potable water, food, and hygienic sanitation 
facilities do not exist, and many were victims of public 
beatings by government authorities for failing to meet their 
quotas. 2012, as in previous years, almost all the high schools 
across the country were closed until the end of the harvest. 
And as of November, most kids hadn't spent a single day in 
school.
    According to one student, ``To avoid cotton harvest, one 
has to have either power or money. Last year, two students were 
expelled from the Institute of Agriculture. They did not go and 
pick cotton. As soon as the studies began, they were expelled 
for their absence. After this, how can you not be afraid?'' 
This was a quote from a third-year student at Andijan 
University.
    Another quote: ``For the first time in many years, college 
students from Tashkent were sent to pick cotton. Some 300 
students and 18 teachers were sent. Even those exempt from 
going to the cotton fields due to illness had to pay money.''
    And this was according to a teacher at Tashkent College of 
Communications. A college teacher observed, ``This year, in 
order to avoid refusals, the authorities morally prepared 
parents for a cotton campaign.'' And on September 2nd--and the 
cotton season begins in September--college administration and 
local government representatives held meetings with parents to 
explain to them that it is their duty to harvest cotton. 
Parents who tried to protest were asked to write explanatory 
notes to justify their refusal to send their children to the 
cotton field, and the government authorities told parents that 
their explanatory notes would be sent to their places of work 
so that their superiors could consider their unpatriotic 
behavior.
    Another common threat was to expel the student, and so 
parents and students both reported that they feared reprisal. 
High school students were required to fulfill daily quotas. 
Penalties for poor work included, as I mentioned before, 
expulsion and verbal and physical abuses. According to one 
student in Samarkand, ``If someone did not come to the fields, 
the teacher came home and scolded them.'' The director of the 
college beat two boys. He ``hit them several times in the 
face.'' This was a college student. Now, a ``college'' in 
Uzbekistan is a high school in the United States as we would 
understand it.
    When 19-year-old Navruz Muysinov tried to return home 
early, eyewitnesses reported that a police officer stopped him 
and beat him. After that, the policeman took him to the 
hospital, where he died. The results of the investigation into 
the cause of the death of that young man remain unknown.
    About one out of every six government employees were forced 
to pick cotton in 2012, including teachers, doctors, nurses, 
members of the military, ministry officials, and others. Among 
teachers, the percentage soared to 60 percent of all teachers 
were forced to work in the fields. And the mass mobilization of 
government employees began in September.
    Increased adult forced labor, which is the trend we are 
seeing, has a severe impact on the delivery of vital government 
services during the harvest.
    Medical personnel, who are government employees, who are 
forced to pick cotton in large numbers, were not at the 
hospitals and clinics when people needed medical help. Eleven 
thousand nurses and doctors from Tashkent, the capital, alone 
were sent to work in the fields. And when one resident from 
Bukhara, a different city, took her children to the hospital, 
she said that there were no doctors available.
    An estimated 60 percent of school teachers forced to work 
in the fields required that they combine the classes. So there 
were 50 to 60 students for those that were able to stay in 
school in each classroom. And the lessons were either shortened 
or cancelled.
    Private-sector employees from both domestic and 
multinational corporations were forced to contribute to the 
cotton harvest either by providing labor or by providing a tax, 
which is corruption.
    For years, the Cotton Campaign has been calling for a Tier 
III placement for Uzbekistan. It would be consistent with the 
facts presented by the State Department themselves in the 
report. According to the State Department's Trafficking in 
Persons Report, in 2011 Uzbekistan made no advancements in the 
efforts to eliminate the worst forms of child labor. Excuse me, 
that is the Department of Labor report.
    The U.S. Department of State wrote, ``The Uzbekistan 
Government continued to force children and adults to pick 
cotton. The government continued to refuse to allow the 
international labor organization to monitor the cotton harvest, 
and they continued to deny that forced labor of children in the 
cotton sector exists in Uzbekistan.''
    Despite this very accurate statement, the State Department 
has failed year after year to hold the Government of Uzbekistan 
accountable under the standards set by this Congress in the 
Trafficking Victims Protection Act. In 2012, when the State 
Department decided to prevent Uzbekistan's automatic downgrade 
to Tier III, which would have required a written plan, that if 
that had enough support behind it, that it would end the 
problem, the Government of Uzbekistan had their representative 
in Washington testifying before the United States Trade 
Representative steadfastly denying that forced labor even 
exists or that there is a quota system.
    This is the quote from the Ambassador in that hearing: 
``That is why during Soviet time it was compulsory to pick 
cotton by children. But today it is not compulsory because 100 
percent of the cotton is being produced on farms.'' And what he 
means is private farms. The State Department has already 
identified that virtually all farms are tied to this coercive 
system.
    Again, less than 3 weeks ago, Ambassador Nematov from the 
Government of Uzbekistan testified at the United States Trade 
Representative, ``There is no compulsory forced labor.'' 
Another quote from the Ambassador: ``Today cotton is hard 
currency. If somebody who has an interest to pick up cotton and 
make money, there is no compulsion. He can go to the farmers, 
and they will pay. For schoolchildren, it is not compulsory.''
    These are the statements from the Ambassador to the United 
States Government. One last one: ``No, children do not 
participate. Farmers invite some companies or some people to 
help pick cotton, but not children.''
    Failure to downgrade Uzbekistan to Tier III would reward 
the Government of Uzbekistan for flagrant disregard of its own 
national laws and international commitment, and it will 
guarantee that state-sponsored forced labor of over 1 million 
children and adults in Uzbekistan would continue this coming 
fall in the 2013 harvest.
    It would also contribute to placing United States companies 
in a position of increased risk. Companies operating in 
Uzbekistan continue to succumb to pressure to contribute to the 
forced labor system. And companies using cotton around the 
world continue to face the risk of forced-labor-made cotton 
from Uzbekistan tainting their supply chains.
    Given the continued massive government mobilization of 
forced labor during the 2012 harvest, the only way the 
Uzbekistan Government, in our view, could still demonstrate any 
commitment, even as low as it is, to making significant efforts 
to combat this form of human trafficking--that is, to drop 
them--to avoid a drop to Tier III placement--they must invite 
the International Labor Organization's high-level, tripartite 
mission to monitor next fall's harvest, and they must do so 
before June.
    We hope the members of the committee will join us in 
pressing this point with senior officials at the State 
Department, not just the trafficking office--their reports 
reflect what is happening--but also the Office of the Under 
Secretary for Civilian Security, Democracy, and Human Rights, 
and especially the Bureau for South and Central Asia, whose 
responsibility it is to witness and to ensure that the State 
Department policy reflects the laws of our country.
    Thank you very much.
    Mr. Smith. Mr. Campbell, thank you very much for your very 
specific recommendations, as well. We will follow up.
    [The prepared statement of Mr. Campbell follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              ----------                              

    Mr. Smith. I would now like to invite the testimony of a 
woman who has been victimized. And we are very grateful that 
she has had the courage to come forward and to speak.
    Ms. Choe?

   STATEMENT OF MS. ESTHER CHOE, VICTIM OF HUMAN TRAFFICKING

    [The following testimony and answers were delivered through 
an interpreter.]
    Ms. Choe. Hello. My name is Esther Choe, and I am currently 
living as a new American citizen, which I consider to be a 
great honor.
    Through the grace of God, whom I believe in, and also 
through the help of a Korean-American missionary named Phillip 
Buck, I was able to be resettled in the United States via the 
UNHCR.
    As the airplane I was in was flying into America, I saw the 
land below me brightly lit up with electricity, as if sparkling 
jewels were splashed about. And I remember thinking to myself 
that if I had this kind of electricity and lights, I would have 
never left behind my child in my hometown and escaped from 
North Korea.
    I woke up every morning at 5 o'clock am and worked until 11 
o'clock p.m. At night, working and doing needlework under an 
oil lamp. Since there was no electricity, I had to use my legs 
to turn the sewing machine and used briquettes to heat the iron 
needed to iron clothes. And I was also in great pain because I 
was working all day with my head bent down. During the 
wintertime, I also had to endure the bitter cold.
    Because the sewing work I did to try to feed my family was 
not enough, I decided to go to China to earn extra income. Just 
like many North Korean citizens hear about the outside world 
from North Korean defectors, I too found out information about 
China from a woman from my hometown who had been repatriated 
from China. I sought her out and heard many great stories about 
China.
    What I heard from her surprised me immensely. In China, 
just by working for a family at a house as a babysitter, one 
could earn approximately 1.2 million North Korean yuan. Since I 
could earn in 1 month what it would take me months of hard work 
in North Korea, I made a decision to go to China.
    In North Korea, the trains do not run regularly, so if a 
person wanted to go visit a relative or go somewhere else to 
work or sell goods, it would take up to 2 months of travel. And 
I thought that if I went to China and came back, I would not 
arouse suspicion or be detected. And through the contacts 
introduced to me by the North Korean defector woman who had 
been arrested and repatriated to North Korea, I crossed into 
China via the Tumen River.
    That evening when I arrived in China, I changed clothes and 
got into a car and rode for 14 hours. I naturally thought that 
I was being taken to a place where the contacts would introduce 
me to a new job. But once we arrived at our destination, I 
realized that I was getting involved in a human trafficking 
situation.
    And I started to cry and plead with the people who had 
taken me in. I begged and pleaded with them that I was a 
married woman with a child and a husband and that I needed to 
go back to my home, but they were cold and detached in their 
response. The human traffickers said that they had invested 
money and 14 hours of their own time to bring me to my 
destination, so they needed to at least break even financially, 
and though they could not help me right at the moment, after I 
was sold, depending on the situation, they would try to send me 
back home.
    The place where I was sold to in tears for 16,000 Chinese 
yuan was to a Chinese man in his 50s who was still not married 
because he was so poor and had no money. And this man was 
living with his 80-year-old mother in a very poor and destitute 
situation. Because he was afraid I would run away, I was 
followed everywhere, even to the bathroom, to the stream near 
the house, wherever I went. When they needed to leave the 
house, I was locked inside the house and I could not leave. For 
2 months, I spent the time just crying, thinking about my child 
and my husband and how to get back to them, and looking for the 
right moment to escape.
    And when I did barely escape, I went to look for and sought 
out the broker who had sold me. I cried and begged with the 
broker again to send me back home to my family, but this 
broker, who had no humanity in him, instead of showing 
compassion and kindness, looked at me as a way to make a profit 
and instead sold me to another old, unmarried farmer in the 
countryside.
    I really had no hope to continue living and wanted to die, 
but I thought of my child back home and just barely survived 
and succeeded in escaping again. And knowing that I had a 
distant relative who lived in China, I made inquiries looking 
for my aunt and found her.
    Other North Korean defector women have been caught trying 
to escape from trafficking and have been beaten mercilessly. 
And some women are locked up for months and mistreated, and 
some are even forced to become pregnant so that they cannot 
escape. There are countless stories like these, but I believe 
that God protected me, and I was able to escape successfully.
    The last place I escaped from, there were four other North 
Korean refugee woman who had been sold and were trafficked into 
that location. Among the four, the most pitiful one was a 15-
year-old girl who was intentionally falsely announced as a 19-
year-old and then sold. She was sold to a 35-year-old single 
man and one day escaped successfully. And she, too, sought out 
her broker who had sold her in order to try to get back home, 
but I heard that she, too, was sold again to another human 
trafficking situation.
    I was sold twice by human traffickers in China, and in that 
time I found God and also found my relative. And through this 
relative's help, I was able to meet Pastor Phillip Buck and 
then was able to find help from the UNHCR. I truly believe 
myself to be a woman who found great fortune and luck in 
finding this help.
    Even now, there are so many North Korean refugee women who 
are going through extreme difficulties and hardships and being 
sold in these human trafficking situations. There are countless 
North Korean refugee women who are sold into Internet online 
sex sites and into karaoke bars. And because they want to keep 
their chastity and virginity, some try to commit suicide.
    If caught, they are beaten and abused until literally bones 
break and then handed over to the Chinese police, who then 
repatriate them in North Korea at the hands of the Bowibu, the 
national security agency agents. These women are then tortured 
and beaten and called dirty women and prostitutes who sold 
their bodies. And many die silent deaths like this.
    Some women are forced to have babies with men they are sold 
to. And when they are arrested and forcibly separated by the 
Chinese police, the North Korean refugee mother will cry out in 
broken Chinese, ``I will come back for my baby.'' There are 
countless women like these.
    I really did not want to come here and testify today 
because I too want to live a happy life and I too want to meet 
a nice person and because I also fear that harm may come to my 
husband and child, from whom I am separated for life because I 
cannot return now to North Korea. However, I am here today 
because I want to tell the world about what is going on and 
appeal to the world and be a voice for the countless North 
Korean women and the mothers of the North Korean children who 
died and were killed in trying to keep their honor.
    Right now, Kim Jong Un and the regime is testing nuclear 
weapons and threatening the world and claiming that they are 
strong. They must feel ashamed and embarrassed that their own 
citizens have become targets of derision and ridicule in the 
world and that their own people are being sold like animals and 
mistreated in another country. And when the people were 
tearfully trying to survive and eat, the regime took the aid 
and the food that the international community sent and instead 
used that make weapons to threaten the world that only desires 
peace. They must feel ashamed that they are the leaders of such 
a brazen-faced nation.
    I also sincerely pray that God and the whole world will 
judge the regime that does not even care for or plan anything 
for its own people. And I earnestly plead that the world will 
help the weak and helpless North Korean refugee women who are 
dying today from hardships that are far worse than what I 
endured.
    I close my testimony by asking for God's blessings, the 
blessings that he has bestowed on me to be with all of you here 
today in this place and with all the people who have a heart 
and compassion for the people of North Korea and who will help 
the North Korean defectors.
    Thank you.
    Mr. Smith. Ms. Choe, thank you very much for being here.
    [The prepared statement of Ms. Choe follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. You are a blessing. And I personally, and I am 
sure I am joined by members of the panel, thank God for your 
extraordinarily brave witness and for taking the time to tell 
us and the world exactly what you have been through and what so 
many others are going through as we meet. Thank you.
    I would like to now yield to David Abramowitz.

  STATEMENT OF MR. DAVID ABRAMOWITZ, VICE PRESIDENT, POLICY & 
             GOVERNMENT RELATIONS, HUMANITY UNITED

    Mr. Abramowitz. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Bass, Mr. Meadows, Mr. Weber, 
thank you for the kind introduction and for holding this very 
important hearing on one of the most terrible human rights 
abuses of our time and on one of the most effective tools to 
try to end it, the Trafficking in Persons Report.
    Mr. Chairman, the TIP Report, which you helped create, 
increased the understanding of the scope of modern-day slavery 
and has raised the voices of the victims of this scourge.
    And I also want to join you and everyone in the room in 
thanking Ms. Choe for having the courage to come forward today. 
Many of us have spoken to witnesses, and no matter how prepared 
you are, it is always a huge challenge to talk about your 
story, but it has a huge ability to enlighten all of us on what 
is really happening. And so I really wanted to thank her and 
Ms. Scholte for helping to bring her here today. Because it is 
imperative that the voices of the victims, who hopefully will 
all become survivors, are out in front in discussing this 
debate.
    But not only does the TIP Report talk about the victims and 
survivors, but it also has been an incredibly effective tool to 
try to eliminate trafficking, reduce it, and to save lives.
    And, Mr. Chairman, per your suggestion, I would love to 
have a document from the Alliance to End Slavery and 
Trafficking which lists a number of very important successes 
that the TIP Report has had over the years and helped save 
lives be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Abramowitz. However, Mr. Chairman, the sharp edge of 
the TIP Report must constantly be honed by applying the 
strongest facts and most rigorous analysis to its edge, or its 
value, as you indicated, Mr. Chairman, will diminish.
    This is not easy. Ever since the initial TIP Report, 
regional specialists in the Department of State and elsewhere 
have clashed with those who argue for the strictest possible 
application of the legal standards in the Trafficking Victims 
Protection Act as they assess individual countries. As I detail 
in my testimony, Mr. Chairman, these clashes, in part, led to 
the swelling of the number of countries on the Tier II Watch 
List, which you mentioned, Mr. Chairman, which came to be 
viewed as a parking lot for countries whose efforts to combat 
trafficking were stagnating.
    In order to address this situation, Mr. Chairman, as many 
of you have mentioned, in the 2008 Trafficking Reauthorization 
Act, a new requirement was put in that stated that after 2 
years a country that was on the Watch List had to go down to 
Tier III, but giving the Secretary of State some discretion for 
an additional 2 years to keep them off of that Tier III list, 
which is where it is indicated that they are not making 
significant efforts, if they have a written plan to try to stop 
trafficking, if there are funds for that plan, and if they are 
making efforts to implement the plan.
    The automatic downgrade provision has led to successes over 
the last few years. Because of the concerns that countries had 
that they would be moved to Tier III, a number of countries did 
make a number of very important steps. And I mentioned a couple 
of those in my testimony. But now the Department faces the 
question of demotion to Tier III or promotion to Tier II for 
the six countries we are discussing today.
    Mr. Chairman, when that provision was adopted by Congress 
and was signed by the President, what could not have been 
anticipated is that, at just the time when these decisions were 
coming due, there would be a new Secretary of State who would 
be going through these issues for the first time and that there 
would be a vacancy in a key position, which my colleague 
mentioned, the Under Secretary of State for Civilian Security, 
Democracy, and Human Rights.
    I cannot tell you how important it is that the lack of a 
high-level voice because of that vacancy is very problematic. 
The Under Secretary can make sure that there is appropriate 
vetting of these decisions at the highest level in the 
Department. And it becomes difficult for those who are pushing 
for these issues to actually move forward and try to get the 
best possible results where that Under Secretary position is 
vacant.
    But, Mr. Chairman, I think, as a couple of my fellow 
witnesses have indicated, we shouldn't be just focusing on 
these six countries. There are a number of other countries that 
are looming on the horizon--I mention a couple in my 
testimony--that could well be promoted this year so that they 
don't have to face the automatic downgrade next year. So while 
I really think this is a very important set of countries to be 
focusing on, as we look at the report when it comes out in 
June, we need to make sure that we are looking across a number 
of different countries to see what is happening.
    Mr. Chairman, this automatic downgrade provision has had an 
important effect, I think, about how the Department does its 
analysis. Previously, the TIP Report really was a snapshot of 
what was happening in the particular country that was being 
assessed, what were the facts that year. And there were, as I 
discussed, disagreements about what those facts meant. But now, 
because of these efforts, people are looking at previous years 
or they are looking at what might happen next year in trying to 
determine how hard to fight on a particular country, how much 
emphasis there is. So I think that we need to think about that 
as we move forward.
    Mr. Chairman, I am not an expert on the countries that 
are--the six countries. We have heard some very compelling 
testimony in the last few days. I do take two cases, two of the 
six cases, the Russian Federation and Uzbekistan, which have 
been described by my colleagues here.
    My understanding is that Russia has done very little. And 
as we just heard from Mr. Campbell, to the extent that 
Uzbekistan has done anything, it seems that it substituted one 
form of forced labor for another.
    These two countries suggest a key methodology for reviewing 
all six cases as well as the others. And Ambassador Lagon 
referred to this, I think, as did some of the other witnesses. 
There is a written action plan, supposedly. I wonder, after Mr. 
Campbell's testimony, whether Uzbekistan really ever had a real 
adopted national action plan. But under the provisions that 
extended these countries from being not put down on the Tier 
III list, there is supposed to be a written action plan. That 
was the basis for the waiver.
    So when we look at this coming report, what have they done 
with that action plan? Which parts of it were implemented? 
Which parts were funded? That is actually an objective basis 
for determining whether the State Department has actually 
applied the law to the facts.
    Similarly, what were the recommendations in the TIP Report 
for each country? Each country has a list of a number of 
recommendations. Several of those were read. They are listed 
out in my testimony for those two countries. Were any of those 
recommendations adopted? Was only one of them?
    For example, in Russia, we understand that there was a 
shelter that was opened in St. Petersburg. I laud that step--or 
is about to be. I laud that step. But when you look at all of 
the other criteria and all the other recommendations, as was 
described by my colleagues, it seems that that is a very small 
step compared to what our own State Department says it should 
be doing. So we have some objective criteria to base these 
countries on when we do that analysis.
    In terms of Uzbekistan and the Russian Federation, Mr. 
Chairman, you know, as far as I can tell, with respect to both 
those questions, the action plan and the TIP Report, the answer 
is ``nyet,'' they have not done what they are supposed to have 
done. And it seems difficult for me to think that either of 
them would be promoted to Tier II. And, as I said, I suggest 
that a range of countries should face a similar analysis.
    Mr. Chairman, there are a number of recommendations in my 
testimony for steps that we can take to try to support those 
who are trying to have the most honest report possible. I think 
that President Obama and Secretary of State Kerry need to speak 
out about how they expect a report that has integrity, that is 
based on facts, is actually going to be produced. Often, in 
these cases where there is a transition like this, the mid-
level officials at the Department have a lot more discretion on 
anything other than the top key issues. So I think they need to 
send a signal to the staff that they are going to be looking 
carefully at this.
    Congress needs to speak out early and often. And I really 
commend you, Mr. Chairman and Ranking Member Bass, for holding 
this hearing. It is exactly the kind of thing that needs to be 
done. But more needs to be done over time. As I have said 
before, Mr. Chairman, and as Mr. Campbell was suggesting, we 
need to bring these issues to key officials of the Department 
every time they come and appear before Congress. You often have 
assistant secretaries coming up. There are issues that can be 
raised to say that this is really a priority for all the 
members of the committee across a wide range.
    We need to maintain or increase key anti-trafficking 
assistance programs. Mr. Chairman, with your support, the TIP 
Office has had foreign assistance money that they have been 
able to use where the TIP Report has identified key weaknesses, 
and said to the bureaus themselves and to the country, we can 
offer resources to try to create change in this area. That 
increases collaboration, and that also allows for the country 
to feel that they are not just being lectured to but the United 
States is prepared to make a change.
    This is a program that has been oversubscribed; it gets 
hundreds of grant applications every year. The TIP Office has 
really increased its ability to implement these programs. And I 
was pleased that the President in his budget request maintained 
this account at last year's level, when other accounts were 
facing cuts. But I do think it is one of those programs, 
because it really makes a difference, that is worthy of 
consideration in terms of an increase.
    Mr. Chairman, as I indicated, I think that we are really 
going to have to look at this TIP Report very carefully because 
of the absence of the Under Secretary, because of these key 
decisions.
    And I really think that you should consider talking to the 
Congressional Research Service and seeing if they can do an 
analysis, historically and what is happening today, talking to 
some of the regional experts, to try to provide us with the 
best possible analysis of how this report actually stacks up 
against others. Sometimes we in the nongovernmental 
organization community, civil society, we don't have access to 
the written plans. You can get access to some of these written 
plans, and it could really help us understand what their 
analysis is.
    Finally, Mr. Chairman, depending on how things go, you 
know, we should think about whether we have the right mechanism 
in place. I don't think we need to answer that question. We 
have to see what happens this year with this report, and maybe 
even in next year's report, to see what is happening with this 
provision. But I do think there are some questions about 
whether we have the right mechanism. I list some of those in my 
testimony.
    Mr. Chairman, my written testimony discusses a number of 
lessons we have learned over the last 10 years and gaps that 
are still in the field, including areas that the TIP Report 
might want to address in the future, issues like supply chains, 
issues like foreign labor recruiters, child welfare reform that 
Ms. Bass has been so engaged in. All these issues are really 
frontier issues that we need to focus on here but also other 
countries need to focus on. And I would be happy to talk about 
those when we get to questions and answers.
    Mr. Chairman, members of the subcommittee, we have 
obviously learned much since the TVPA was enacted, but we still 
have a long distance to travel. We in civil society stand ready 
to work with you to try to see how we can march further toward 
the path of eradicating modern-day slavery from the world 
today.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very, very much, Mr. Abramowitz.
    [The prepared statement of Mr. Abramowitz follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would like to now yield to Ms. Smolenski.

STATEMENT OF MS. CAROL SMOLENSKI, EXECUTIVE DIRECTOR, END CHILD 
             PROSTITUTION AND CHILD TRAFFICKING-USA

    Ms. Smolenski. Thank you. Good afternoon, Chairman Smith, 
Ranking Member Bass, and other distinguished members of the 
committee.
    I am very daunted and impressed by the amazing work of my 
fellow panelists here today. So I really applaud you, and I am 
amazed by the expertise up here.
    I am Carol Smolenski, executive director of ECPAT-USA. We 
are the U.S. branch of an international network of 
organizations that works in 73 countries to protect children 
from sexual exploitation. So I am with the ECPAT-USA group, but 
we are part of an international network, so we kind of have a 
foot in both worlds.
    I am going to be discussing today the U.S. position, and 
the U.S. position in the TIP Report, but kind of with a little 
bit of a tinge of the international perspective.
    ECPAT came into existence in 1991 in Asia with the 
recognition of the large number of kids being sold into the sex 
trade, partly to meet the demand coming from foreigners. As a 
representative of what we call the tourist-sending country in 
the United States, we started ECPAT here to stop this horrific 
international child sex tourism trade, but since 1996 we have 
expanded our mission to fight against all forms of sexual 
exploitation of children. We do advocacy, awareness, policy, 
and legislative activities still on the child sex tourism issue 
but also to end the exploitation and trafficking of children in 
the United States.
    So as a member of this international network, I am proud to 
serve as the representative from the U.S. The U.S. is a leader 
on child welfare. My colleagues in other countries often look 
at the child protection system in the U.S. as a model because 
it is worthy of emulating. So I also bring this perspective to 
my comments today.
    So it was an important step in 2010 when the U.S. 
Department of State included the U.S. in the tier system. I had 
so often received questions from my colleagues around the world 
about why the U.S. did not hold itself to the same standard as 
it held other countries. So it was of powerful symbolic and 
diplomatic importance for the U.S. to now list itself in the 
tier ranking.
    I think we benefit as a society when our Government 
publicly reports honestly and transparently how it addresses 
the crimes relating to human trafficking. As part of this 
reporting process, we also see that much more can be done for 
child victims of human trafficking in the U.S.
    The 2012 report, for example, shows that children who are 
sexually exploited are still being arrested, rather than 
offered support and protection, although the numbers are lower 
than in previous years, so that is good. It also shows that few 
children trafficked from other countries are being identified 
and offered assistance as trafficking victims.
    The government, of course, does support various initiatives 
to counter human trafficking, but we are far from achieving a 
level of care for trafficked youth in the United States that I 
expect from my country.
    Prevention is everything. It is a disappointment that we do 
not yet have a laser-like focus on preventing vulnerable 
children from being ensnared by traffickers in the first place.
    As shocking as it is to most people, in the United States 
children are exploited and sold in the sex trade. Frequently, 
they are children who were sexually abused at home by a family 
member or a family friend, children who ran away or were thrown 
out of their homes, or children in the foster care system, as 
Ranking Member Bass has eloquently pointed out.
    Despite having a nationwide child welfare system in place 
that is very admirable in many ways, clearly there is something 
wrong. What we have found is that the majority of workers in 
the child welfare system are not effectively equipped to 
identify a trafficked child. They don't know the indicators of 
human trafficking, and they don't know how to help them when 
they do identify one, partly because of the myriad special 
needs that these children have.
    Some State child welfare agencies are coming around to 
understanding this population of children, but we need our 
existing system to come around faster because no one wants to 
think of a child spending one more night in the hands of a pimp 
or a trafficker.
    And it is for this reason that we strongly support 
legislation that was introduced last session, led by 
Representative Bass, to strengthen the child welfare response 
to human trafficking. Legislation like this will help us get to 
a place where we can find and assist the most vulnerable 
children living among us.
    And we have to get this right. We have to do it right here 
in the U.S., because when we do it right, the U.S. will be able 
to report on this in the TIP Report and in other international 
fora and become a model for other countries to look at this is 
how the U.S. does it, this is how we should be following along. 
I love it when we are in the lead on these issues.
    As an anti-trafficking organization, ECPAT has often led 
the conversation on the diverse populations of youth who are at 
risk for trafficking. We have a long history of partnering with 
other trafficking groups. Today we are an active member of the 
Alliance to End Slavery and Trafficking, or ATEST, a coalition 
of 12 anti-trafficking groups. But it is clear that there are 
many other interest groups and communities that also need to 
work with us to protect children and have to be part of this 
discussion. The juvenile justice system, runaway and homeless 
youth organizations, and schools all have to be part of an 
energetic network taking responsibility for making sure every 
child in the U.S. is safe from trafficking and exploitation.
    We hope that the new Federal Strategic Action Plan on 
Services for Victims of Human Trafficking in the United States 
will take on this challenge and drive all child- and youth-
focused agencies to play an active role. We will be commenting 
on that new plan and specifically recommending that it include 
a set of strategies aimed specifically for child victims of 
human trafficking, both sex and labor.
    Another area where the U.S. needs to live up to 
international standards is in combating child sex tourism. Many 
countries have put in place public and private educational 
awareness campaigns to educate travelers that it is against the 
law to exploit children in every country. In the airport in 
Costa Rica, there are signs reminding incoming tourists that it 
is a country that protects its children. A similar campaign has 
taken place in Brazil. A number of countries' airlines have run 
in-flight videos; Air Canada is currently considering one. Some 
countries, like the Netherlands and France, have made posters 
and fliers available to outbound tourists, again, reminding 
their citizens that it is against the law everywhere to 
sexually exploit children.
    The U.S. Government and U.S. industry have never taken on 
this type of overt public campaign, despite the fact that we 
have a strong Federal law against child sex tourism. We have to 
do more. Also, how can the U.S. give countries a low ranking 
for having a large sex tourism industry when it is often 
Americans who are the ones who are traveling there to exploit 
the local population to begin with? We have to do something 
about this, and I really recommend a public education campaign.
    Let me just talk for a minute about international standards 
for protecting children. ECPAT, of course, believes it is in 
the U.S.'s best interests for the U.S. to join the community of 
countries that have ratified the Convention on the Rights of 
the Child.
    The U.S. Government has ratified the optional protocol to 
the U.N. Convention on the Sale of Children, Child 
Prostitution, and Child Pornography. Our implementation of the 
optional protocol was recently reviewed by the U.N. Committee 
on the Rights of the Child, and the committee recently 
published its concluding observations and expansive 14-page 
report, which I can give you if you want. And I am attaching to 
my testimony a 3-page summary of the committees's 
recommendations.
    But just briefly, in general, the committee's 
recommendations fall into five areas: One, the U.S. should be 
sure that all crimes in the optional protocol are covered in 
Federal, State, and local responses, as well as laws, 
procedures, awareness efforts, and training of relevant 
professionals who work with children, along with appropriate 
financial support.
    Two, as crimes against children occur across the country, a 
50-State, all-territory response is required. Only strong 
coordination and communication of a national plan like the one 
that the U.S. is already considering across Federal and State 
agencies and stakeholders can result in an effective effort to 
prevent and address the crimes in the optional protocol.
    Three, the U.S. must make efforts to synthesize Federal and 
State legal definitions of optional protocol crimes, including 
creating standardized definitions across agencies and 
jurisdictions. For example, one place where this is obvious is 
in data collected by, one, the National Human Trafficking 
Resource Center, two, the National Center on Missing and 
Exploited Children, three, the Runaway and Homeless Youth 
Hotline, among others, who might all be receiving calls from or 
about child trafficking victims but classifying them 
differently. If we could get those definitions in line, that 
would be a big step forward.
    Four, the child's best interest and health is of paramount 
concern, whether the child has been a victim of pornographic 
images, illegal adoption, egregious labor practices, or sexual 
exploitation.
    And, five, without data, it is hard to effectively target 
our actions and to measure our results.
    One last thing. I am attaching to my testimony a copy of 
the ECPAT report on child sexual exploitation in Russia that 
the subcommittee might want to consider as it continues to look 
at tier rankings.
    And, in conclusion, I would just like to thank you so much 
for your amazing leadership over all of these years, both here 
and abroad, and for your interest in ensuring that the TIP 
Report remains this really strong and powerful tool.
    Thank you very much for your attention.
    Mr. Smith. Thank you so very much. Thank you for your 
leadership.
    [The prepared statement of Ms. Smolenski follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me ask a few questions. You know, as I fully 
expected, your testimonies are not only comprehensive, they 
were filled with actionable items. And my hope is, because we 
will convey this to the Department of State, that they will 
look at it very carefully as well, not just to the TIP Office, 
but to the regional bureaus as well.
    I think, Mr. Abramowitz, you know, you point out the sharp 
edge of the TIP Report must be constantly honed by applying the 
strongest facts, most rigorous analysis to its edge, or 
otherwise it risks being dulled to the point of being unusable.
    I was concerned, and still am, because I think this 2013 
TIP Report will be another test as to whether or not 
unwittingly Congress has moved to weaken our efforts vis-a-vis 
the most recently passed Leahy amendment. I was very concerned, 
and I had hoped to offer an amendment to change that but was 
not given the opportunity when the bill came over here. We 
could have ironed out our differences in a House-Senate 
conference, which now will not happen.
    But the shifting of power to the regional bureaus, as you 
recall, David, that was one of our prime reasons for creating 
the TIP Office in the first place. It now has about 55 people, 
a very effective Ambassador-at-Large in Luis CDeBaca. But if 
the regional bureaus are further empowered and the balance 
shifts even more in their direction, information and data that 
we need to be on the table and then acted on in an appropriate 
way simply will not happen.
    And I say that not just in the area of trafficking. I have 
tried repeatedly and asked Secretary Kerry yesterday, and he 
seemed quite responsive to take up the issue, even when it came 
to an American citizen, Jacob Ostreicher, who was languishing 
in a prison in Bolivia for 18 months. He has never been accused 
of anything, but had his assets and rice farm stolen. And I 
have been unable to get the Assistant Secretary to speak out. 
And we have found that repeatedly with other Assistant 
Secretaries, who have many important jobs to do; nobody would 
suggest otherwise. But human rights often take a huge back 
seat, and trafficking is among the human rights abuses that 
take that back seat.
    Same goes for our Ambassadors, our DCMs. I do travel a lot 
and speak out. I am a special representative for trafficking 
for the OSCE Parliamentary Assembly. And it is bewildering, no 
matter who is in the White House, how the Ambassadors seem to 
trivialize and put in a nice little compartment our actions to 
combat human trafficking. Some are very robust, so you can't 
make a blanket statement, but, frankly, there are many others 
who want it all to just go away and do a minimal effort against 
it. And when it comes to the tier rankings, that is 
catastrophic.
    So the reason for this hearing was to try to begin a 
process, as you pointed out. And it is not the last hearing we 
will hold before TIP--or before those rankings are meted out, 
so that we don't get it wrong. We have had hearings in the 
past, but this year is a test.
    And Vietnam, I think, without a doubt should be on Tier 
III, given what they have done. As a matter of fact, the first 
case prosecuted under the TVPA in 2000 was the Daewoosa case. 
And those Vietnamese Government officials were never held to 
account for that horrific sweatshop that they were running. And 
now we know that it is continuing in so many ways.
    And you might want to comment on that, because I do think 
we have seen a shift. I am not sure how sustainable the TIP 
Office will be in terms of personnel when the authorization 
goes from $7 million to $2 million. And, of course, 
authorizations can always be breached, and hopefully they will 
in this case, so that additional resources will be made 
available to Ambassador CDeBaca.
    If anyone would like to comment on this, because, again, I 
have great respect for the regional bureaus. I plan on asking 
the regional Assistant Secretaries, hopefully, and perhaps 
their DASes, as well, to come here before all of this is done, 
certainly after the fact too, to hold them to account. They are 
very good people, but trafficking isn't always very high on the 
prioritization list.
    So, anybody want to comment on that?
    Yes, David?
    Mr. Abramowitz. Well, just briefly, Mr. Chairman, you know, 
obviously, you and I have both met Ambassadors who are very 
committed to this issue and have made a lot of real change. 
Cambodia was one of those cases early on, where there are 
Foreign Service officers who have done some great work on this. 
But it is often the case that these issues are often the ones 
that are not their focus as they move forward, and often they 
are not, even at the political level, they are not given the 
priority they should.
    I will note, Mr. Chairman, just on a couple of minor 
points, I think, you know, the reauthorization bill did also 
have some very good provisions in it, including the child 
compact provisions that, you know, you championed for a number 
of years and finally got it done.
    And my understanding is that, on the authorization level, 
that, in fact, that number is really for the efforts of the 
office with respect to the interagency task force. At least 
that is the way the Department is interpreting it. We will see 
what the budget request comes out as, but my understanding is 
that there may be some minor cuts, because everybody is going 
to take a cut at the Department, but the budget request will be 
at least reasonably robust. And we will definitely have to 
follow that up.
    I did note that when the bill was passed, Chairman Royce, 
because he has been a great champion of this issue, did put an 
explanatory statement in the record to address some of the 
concerns on the regional bureaus to make sure the TIP Office 
was not degraded in any way. And hopefully that message will 
get through, that there continues to be very strong interest in 
ensuring that the regional bureaus need to become more engaged. 
They can be important partners in this effort, but these 
provisions were not designed to undermine the TIP Office.
    Thank you.
    Mr. Smith. Thank you.
    Let me just ask, if I could, I know that Ambassador Lagon 
might have been able, because he mentioned it in his testimony, 
to speak to the issue, but, you know, there are countries like 
Holland, a very sophisticated and mature democracy, and yet 
there are very serious allegations that have been made. And I 
actually chaired a hearing on that specifically and heard from 
a young man who was a boy at the time when the Justice 
Minister, Secretary-General Demmink, allegedly raped him. And 
we have very serious allegations being made and yet not the 
commensurate action being taken by the Dutch Government to 
investigate in a robust and thorough and comprehensive way.
    So I just put that--I do hope, and I know we have briefed 
and passed on information to the TIP Office, but it seems to me 
when you have a country that actually houses The Hague and is 
known as a center for justice, adjudication, that for someone 
in such a high-ranking position to go without thorough 
investigation when serious and seemingly very credible 
allegations have been made does a grave disservice to all the 
efforts we are trying to make in combating sex trafficking.
    And I would just say parenthetically, on one trip in 
Brazil, when I spent several days in Brasilia working on 
combating human trafficking and working with their lawmakers, I 
spent half a day in Rio de Janeiro and went to a shelter and, 
sure enough, there was a woman, who thankfully was saved from 
being sent to Amsterdam, where an overwhelming number of 
foreign women are trafficked. And the Dutch say they come there 
on their free accord. She wasn't. And it is very hard, as we 
all know, when women are rescued even, to tell their story, 
because they fear police, they fear retaliation against their 
loved ones. And through her tears, I will never forget how she 
was--and she was one of the lucky ones who was rescued.
    I will go to Ms. Bass first, and then I will come back to 
some of my other questions.
    Please.
    Ms. Bass. Sure.
    Well, I want to join the chairman in thanking all of the 
witnesses for really incredible testimony.
    I did want to ask, you know, several questions to the 
witnesses. And I am not sure who to direct these to 
immediately, so whoever wants to respond.
    I was trying--I think maybe it was Mr. Campbell, you were 
talking about Russia and Uzbekistan. And I wanted to understand 
about the forced labor, especially of teenagers. And I wanted 
to understand, are these businesses that are owned--you know, 
the farms, are they owned by government? Is it government-owned 
industry? Is it private industry? And then, do we do business 
with--you know, do we get cotton from Uzbekistan?
    I do understand some of the politics involved in why we 
don't move, you know, countries from Tier II that should be on 
Tier III because of their strategic importance. And we can 
debate whether or not that should happen or not. I don't think 
it should. But Uzbekistan? I don't know how they fit into that.
    Mr. Campbell. Thank you, Ms. Bass, for the questions.
    So, to tackle your first questions on the farms, the answer 
is the farms are, as I understand, are 99-year leases from the 
government to the farmers. But that was, what I believe, a 
cosmetic implementation of land reform, when, in reality, one 
of the forms of coercion that we are able to identify is the 
threat of loss of your farm by the government. So if you are a 
farmer and you refuse to plant crops, you can lose your farm.
    And while the government may say, well, that private person 
owns that private farm, what the State Department has been very 
clear about is those ``private farms'' are all tied in this 
state-controlled system, this state-ordered system. So the 
state sets the orders, tells people when to implement them, and 
tells people when to bring the crop in.
    Now, what the government will let them do is perhaps grow 
another crop on some of that land. So they may only make a 
farmer set aside a certain amount of their land, and they may 
get to grow vegetables or some other crop. And I am not saying, 
although I don't know for sure because it is a closed society, 
they might--you know, I don't know if there is forced labor in 
those other crops. All we know is that there is forced labor in 
the cotton crop through this coercive system.
    In terms of what is coming to the United States, what we do 
know is that cotton from Uzbekistan does come into the United 
States from time to time, but Uzbekistan is an exporter, just 
like the United States is, for cotton. Now, we don't produce a 
lot of garments anymore in the United States.
    Ms. Bass. Right.
    Mr. Campbell. That production has gone overseas in the race 
to the bottom. So much of the Uzbekistan cotton that we know of 
goes through Bangladesh and other countries and are processed 
into clothes in those countries and then brought into the 
United States.
    We have been able to identify some very specific companies. 
Daewoo International, a Korean company, purchases around 20 
percent of the domestic cotton crop of Uzbekistan, processes it 
into yarn in Uzbekistan. And while we haven't seen many 
shipments, we don't have the full information, we do know that 
they have exported into the United States several times since 
2008. We saw a $70,000 shipment come into the United States of 
Uzbekistan yarn just in February.
    And, finally, we have a company known as Indorama. It is, I 
believe, a Southeast Asian company; I would have to get the 
specific country. And they recently shipped some yarn into 
Puerto Rico. And while we don't know what that factory or what 
that yarn is being used for, it does raise concerns that that 
yarn is being spun in American factories----
    Ms. Bass. Right.
    Mr. Campbell [continuing]. Into, whether they be possibly 
military garments or other products that are manufactured in 
Puerto Rico. So these are important issues.
    Our big concern is and my request back to the committee is 
it is not just the State Department, it is also other agencies, 
so working with the committees that would have oversight of 
these other agencies, such as Customs. There is a law that 
prohibits the importation of these goods that is not being 
enforced.
    And so I would encourage that these examples be taken and 
pushed and that the government from across the board, not just 
the State Department, but the U.S. Government across the board 
use all the tools at its disposal to end this forced labor 
scourge in Uzbekistan.
    Thank you.
    Ms. Bass. Well, I appreciate that. And if you have some 
recommendations as to what we should do about that to end it, I 
would certainly appreciate it.
    Were you going the say something?
    Mr. Abramowitz. Ms. Bass, just one point is that, as part 
of the President's initiative from last fall, he did promulgate 
an Executive order on U.S. Government contracting to----
    Ms. Bass. Right.
    Mr. Abramowitz [continuing]. Make sure that trafficking 
does not involve any goods that the U.S. Government produces. 
And that can reach a wide range of different types of products, 
including products made with cotton.
    And the Office of Management and Budget, GSA, and the State 
Department are all working on a joint draft regulatory rule 
that will address exactly how that Executive order is going to 
be implemented. And those regulations really bear close 
watching, because if the U.S. Government is not importing----
    Ms. Bass. Right.
    Mr. Abramowitz [continuing]. Its cotton and other things, 
and contractors that we contract with as a government are 
looking at their supply chains, that can really create change 
across the entire waterfront.
    So those regulations are really worth looking into, and I 
am sure that there would be an opportunity for Members of 
Congress to weigh in.
    Ms. Bass. I know last year we were certainly concerned 
about some of our contractors within the Defense Department, 
and maybe they were contracting with companies, you know, 
overseas that were involved in trafficking even on some of our 
bases.
    When you talk about the young people that are forced into 
labor, who are these young people? Do they take young folks in 
the criminal justice system in these countries, or are they 
just schoolkids that are rounded up and forced to pick cotton? 
Who are the young people?
    Mr. Campbell. They are everybody in Uzbekistan. They are 
the young people of Uzbekistan. And it is done on such a wide 
scale that it touches all aspects of life in Uzbekistan. And so 
these are children in schools, or should be in schools, these 
are children in high schools, young adults in universities, and 
also adults who work in the private and public sector. So it 
touches everything.
    Ms. Bass. And I had the same question about the industries 
in Russia that are involved in the forced labor, in terms of 
the companies, who are they, do we do business with them, are 
they state-owned?
    Mr. Campbell. I will say that I am not an expert on Russia, 
and so I will have to defer that question to perhaps another of 
my colleagues.
    Mr. Thang. Yeah, may I answer that question?
    Ms. Bass. Sure.
    Mr. Thang. Yes. As far as the Vietnamese community in 
Russia, we are aware that most of the forced labor involves 
sweatshops.
    Ms. Bass. Oh.
    Mr. Thang. And they even form an association of such 
sweatshops under the tutelage of the Vietnamese Embassy in 
Moscow. And there are also construction companies that employ 
Vietnamese migrant workers, and they, too, have been subjected 
to forced labor. And, finally, recently we have seen a growing 
number of shoe factories, manufacturing factories, that also 
are involved, and they are owned by Vietnamese nationals.
    Ms. Bass. Thank you very much.
    You know, I wanted to direct some questions to Ms. 
Smolenski, and please forgive me if I am mispronouncing your 
name. But I appreciated your comments in terms of the U.S. 
should hold ourselves to the same standards that we are holding 
other countries to, and sometimes I feel it can be a little bit 
hypocritical. We are looking at the rest of the world, but we 
need to look in the mirror sometimes, and I wanted to know if 
you could comment some more.
    When I look at the TIP Report and I am reading the section 
on the U.S., you know, there is not a lot of information there 
about U.S. trafficking of U.S. citizens, whether we are talking 
about girls, you know, females and males in the child welfare 
system, or you mentioned a point that I think is really 
important and that is sexual tourism, and so our folks going to 
other countries. And one country that comes to mind right away 
is Cambodia and the children that are involved there.
    So I wanted to know if you could expand on that, if you 
could talk about some changes that might need to be made in the 
TIP Report, but it seems like we need to do more here.
    Ms. Smolenski. Yes, of course. I am delighted to expand a 
little bit. ECPAT has been around for 20 years trying to find 
good data to describe the issue in the United States and we 
still don't really have the number, which of course is the 
first question you always get from a policymaker or a 
journalist, how many sexually exploited kids are there in the 
United States. We still don't know that. So we don't have a 
round number, nor do we have the different categories of child 
trafficking and child sexual exploitation. We just haven't put 
any resources into doing anything about the data that we need 
to have as a baseline and the Committee on the Rights of the 
Child keeps asking the U.S. to start with.
    Ms. Bass. But, you know, sometimes I wonder that because, 
you know, and the chairman and I were talking about this 
yesterday, I mean, the FBI, there is the Innocence Lost Task 
Force. You know, I question it. I think we probably have the 
data. It is a question as to whether or not the left hand is 
talking to the right hand, you know. Maybe it is a question of 
doing something that would help our Government compile that.
    Mr. Chairman?
    Mr. Smith. Will the gentlelady yield? And we do, you know, 
the Attorney General obviously puts together an analysis, as 
you pointed out. The FBI has increased its reporting--they 
always need to do more. There is no doubt about that. And there 
have been independent surveys that have been done. One working 
with the National Center for Missing and Exploited Children and 
some other NGOs showed the approximate number of runaways who 
turn into regrettably being bought and sold like commodities is 
about 100,000 per year, average age 13.
    So there is data, but you are right, we can always do 
better and get a much more precise number. The task forces feed 
into that, you know, the FBI task forces. But it obviously 
needs to be prioritized even more. So thank you for that.
    Ms. Smolenski. Yeah.
    Mr. Abramowitz. Mr. Chairman and Ranking Member Bass, I 
think this is a really critical issue. I think that there are 
things that are happening. The FBI in their uniform crime 
reports is also putting in something that will collect more 
data from the States across the United States. But I do think 
that the issue of really trying to figure out in a very serious 
and granular way what is happening so we can figure out which 
interventions can go best where in the United States is 
something we need to work on.
    We, the Alliance to End Slavery and Trafficking, has been 
talking to the National Academy of Sciences who do have a very 
strong social sciences division, and they have expressed an 
interest in doing some work on this. So we are trying to get 
back to them and try to see what kind of proposal they can come 
forward. There may be some need for some for some funding from 
the Federal Government, but we can get you apprised of that, 
you know, to get data from the full range.
    Ms. Bass. You know, as I look at the TIP Report and the 
section on the United States, you know, again it looks like it 
is primary--and, you know, maybe I need to read it closer, 
maybe there is something I am missing here--but it looks like 
it is primarily a report about women from other countries in 
the United States versus what I certainly know is going on. I 
mean, I know that the average age that our girls are being 
recruited into trafficking is 12 years old. They are recruited 
in middle school, and some of them don't survive beyond 7 
years.
    So it seems like we need to do something in the TIP Report 
that reflects more about what is happening with our own girls. 
And I don't know, you know, we will see when it comes out in 
June whether it includes it, but it isn't included in this one. 
And maybe you might be able to offer some kind of guidance that 
we could give that would have more information about U.S. 
girls.
    Ms. Smolenski. And boys, by the way.
    Ms. Bass. And boys. No, absolutely. That is absolutely 
right.
    Also, I have heard a few of you make reference to an Under 
Secretary that is not--I know, you know, again at the beginning 
of the report there is an Ambassador-at-Large and I think 
Ambassador Lagon maybe was the first one. So what is missing? 
Who is this Under Secretary?
    Mr. Abramowitz. Yeah, Ms. Bass, Representative Bass, so 
currently we have an Ambassador-at-Large for Trafficking 
Persons, Ambassador Luis CdeBaca.
    Ms. Bass. Yes.
    Mr. Abramowitz. I think generally he is considered to be 
very effective at what he does, very knowledgeable former 
prosecutor.
    The position that is vacant currently is the Under 
Secretary for Civilian Security, Democracy, and Human Rights. 
Maria Otero, who I am sure you remember, had that position. She 
did resign earlier this year, and that position is currently 
vacant.
    When the discussion is about certain countries where there 
is a disagreement regarding where they should be placed or what 
the facts are, it goes up to the Under Secretary level, where 
the Under Secretary for Political Affairs will have 
conversations with have the Under Secretary for Civilian 
Security, Democracy, and Human Rights that Ambassador CdeBaca 
formally reports to, and right now it is, you know, one person 
talking and there is no one else there.
    So I think that Under Secretary for Political Affairs Wendy 
Sherman has an interest in this issue, but she has a lot of 
things to do. So I think that when those conversations happen 
it is a challenge and it makes it more difficult for the TIP 
Office to raise that issue.
    I don't know what the President's plan is. I think 
Secretary Kerry testified yesterday that they do have a number 
of people who they have slated, but that there is continuing to 
be some vetting issues that has left that position vacant.
    Ms. Smolenski. Can I say just something about sex tourism 
before--I was just taking the mike back for a second.
    Ms. Bass. Sure.
    Ms. Smolenski. Ever since ECPAT was born, we have been 
asking for the U.S. Government to put some attention to 
messaging and education that it is against the law to have sex 
with children in every country, to combat the belief that so 
many Americans have that it is okay culturally to do it in 
another country or it is okay because you are helping the kids 
because they are so poor. And this is very prevalent. I have 
had people say to me this argument that that is why I should 
understand why it is okay.
    And so I really think that we need, especially when we are 
measuring how other countries are doing in their fight against 
sex tourism, I think that we have to do that publicly and 
overtly and do something all around the country.
    Mr. Abramowitz. And, Carol, you can take the mike away from 
me anytime.
    Ms. Bass. Thank you very much, Mr. Chairman.
    Mr. Smith. Will the gentlelady yield just for one final one 
point? One thing that we are very concerned about, because we 
do want to invite the assistant secretaries to testify before 
the decisions are made as to what the tiers will be for the 
different countries, the problem is a lot of those positions 
are vacant. And, you know, when you don't have somebody at the 
helm who really is knowledgeable and focused, it often leads to 
a poor conclusion. So that is what we are so worried about 
because we are in a timeframe where we are talking about June.
    I yield to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each of you 
for your testimony. And I have a few questions for a few of 
you.
    And, Dr. Thang, it is good to see you again. We have had 
you here within the last few days testifying and that testimony 
is heartfelt, I can tell, on your behalf, and it touched my 
heart as you shared these unbelievable stories of lives that 
are devastated primarily with regards to some of the human 
trafficking in Russia.
    And let me go first to Ms. Choe and say, one, thank you for 
sharing your story today with us, and we are proud to have you 
as a fellow American. But since you have this history, would 
you say that your story is an isolated story or one that is 
being multiplied over and over with other North Korean women in 
China.
    Ms. Choe. What I experienced is just one part of many 
experiences that many North Korean refugee women, defected 
women experience in China, and it is a true fact that so many 
North Korean defectors, North Korean defected women are being 
sold and traded in the human trafficking ring in China.
    Mr. Meadows. Thank you.
    Ms. Scholte, let me go to you. Would you be able to 
estimate or give any kind of approximation to the number of 
North Korean refugees that are subject to trafficking each year 
in China.
    Ms. Scholte. 90 percent.
    Mr. Meadows. 90 percent.
    Ms. Scholte. And that is a figure that NGOs agree upon and 
the Government of South Korea as well, that it is at least 90 
percent of North Korean women end up being victims of 
trafficking.
    Mr. Meadows. So 90 percent of the refugees are subject to 
this. So would the Chinese police or government officials, do 
they have a quota, do they get paid for doing this? How are 
they involved in this, or do you know?
    Ms. Scholte. Well, the situation at the border has been 
pretty awful for decades, but when Kim Jong Un took power, when 
his father died in December 2011, the North Korean regime was 
very concerned about people fleeing, and they actually had to 
issue an order that anyone who was caught, that had fled during 
the 100-day mourning period of Kim Jong Il's death, that their 
family and they would be executed.
    Now, at the beginning of last year, fortunately a lot of 
people started to pay attention to this issue because there was 
a group that was in fact arrested in China, and in this group 
were the daughter of a South Korean couple who had made it to 
South Korea, that they were trying to get their daughter to 
come join them, the brother of another man who had made it to 
South Korea, a 70-year-old woman, a mother and her infant. And 
there was this huge outcry in South Korea about this. Even 
President Lee, the South Korean President at the time, appealed 
to Hu Jintao not to send them back. All of them got sent back.
    And the situation now, they have, on the Chinese side, they 
have increased surveillance, electronic surveillance, they have 
increased fencing to try to close off the border. On the North 
Korean side, what they have done is they have expanded the 
units. So basically in the past you would be able to bribe a 
guard but now you have minders that are watching you. And they 
are really trying to seal that border and prevent people from 
crossing, and I think it is worse today than ever before. And 
as a result, we have seen a 42 percent drop in the number of 
people escaping over the past year.
    Mr. Meadows. All right. Thank you.
    Mr. Abramowitz, in your testimony you place a strong 
emphasis, I think, on the funding of a country as we start to 
look at this particular issue of addressing the fight against 
human trafficking, and while I agree grants from the State 
Department are critical and are necessary, they are extremely 
limited, and as we also know, that many times they are given to 
NGOs or the like and not specifically to the country.
    You know, if they are linked to this tier ranking, is there 
not a scenario where the country could say, well, gosh, you 
gave money to this country and not to our country, so that is 
why we are doing so poorly on human trafficking. Do you not see 
it as being more critical that we put the emphasis back on that 
particular government to address it and not be so dependent on 
U.S. funding?
    Mr. Abramowitz. Thank you very much for the question, Mr. 
Meadows. It is very, very important. I think that clearly there 
is never going to be enough money in the U.S. Government's 
foreign assistance budget to try to solve all the problems of 
trafficking around the world, nor should we. We should be 
trying to activate governments to try to make things happen.
    I think that with respect to your first point regarding the 
interest by governments to come to the U.S. and say, hey, 
listen we have a problem, too, can't you just help fund to 
solve this problem, that is not purpose of these grants. The 
grants are generally looking at key interventions to 
demonstrate to the government how they can make this happen. At 
the end of the day, we need to put the emphasis on saying, 
look, you know, it is not that hard to fund a shelter. There 
are civil society organizations to do it. It is not that 
expensive. You know, in some cases there is already a child 
welfare system there in that country and you need to try to 
normalize how you deal with victims in that country just as Ms. 
Bass has been doing here in the U.S. Then you say, okay, now 
you know how to do it, we are moving on to another country, you 
need to build up your own capacity, and so on.
    I think that part of the reason that these grants are very 
effective is that you talk to the country about the problems 
that they have and they start to say, well, listen, we can't, 
you know, deal with that. Look, let's have a conversation about 
this. Let's have a dialogue. We can help you start some 
programs that you otherwise might not be able to do. We have 
trafficking experts who can come in and help you devise the 
best laws. We can train some of your prosecutors so that they 
can really know how to make these cases, which are often very 
complicated cases.
    You know, some of our own U.S. attorneys----
    Mr. Meadows. Right.
    Mr. Abramowitz [continuing]. Have not been able to make 
some of these cases.
    So, it is the activation part of these things, of these 
programs that are really important and can make a difference. 
But otherwise I agree, you need to put the onus on them to be a 
real partner and make the political commitment and then put up 
resources in order to actually make it happen.
    Mr. Meadows. All right. And I believe you also shared a 
statistic that said some 70,000 sex trafficking victims in 
Moscow, 80 percent of whom are under age. That would be 56,000 
underage girls that are subject to human trafficking. You know, 
as we look at that, Russia has pulled out of a collaborative 
agreement with the United States to fight human trafficking. Is 
there any possible justification for moving Russia up to a Tier 
II?
    Mr. Abramowitz. Mr. Chairman, it is very difficult for me 
to see how they can make that judgment. As I said, you know, 
they did work with the International Organization of Migration 
to open up a shelter in St. Petersburg.
    Mr. Meadows. Right.
    Mr. Abramowitz. I am sure that those who arguing that it 
was enough is going to point to that, that they are doing 
something. But if you look at the wide range of different 
recommendations that we are making, that we were just talking a 
second ago, for example, about U.S. Government procurement, 
they are building buildings right now for the Sochi Olympics, 
and I am sure that if they are not doing something right now, 
you know, U.S. athletes could well be housed in buildings that 
are going to be constructed by slaves. And I just don't see any 
actions they are taken to address these very significant 
problems, and it is very hard for me to understand how they 
could make that justification.
    Mr. Meadows. Well, and you mentioned about that space there 
in St. Petersburg. Is that not correct, that that space could 
house only 8 of the 70,000 trafficking victims?
    Mr. Abramowitz. I think that it is a small shelter, Mr. 
Meadows. I would have to get back to exactly the scale. I don't 
know if Ms. Smolenski. So I will try to get back to you with 
some information on that.
    Mr. Meadows. But I guess my point is, it is a drop in the 
bucket compared to the problem. Is that not correct?
    Mr. Abramowitz. Absolutely.
    Mr. Meadows. Okay.
    Mr. Campbell, let me move on to you because you have 
mentioned the oversight in terms of forced labor and what is 
happening not only just with regards to the State Department. 
You said, you know, we need to look at other areas, I guess, as 
well. I believe that was your answer to the question.
    How do we best identify that when we have oversight in 
these areas, whether it be this committee or other committees 
with that jurisdiction, how do we best identify that? To put it 
mildly, it is very hard to make the assumption from human 
trafficking, whether it be on the labor side and as it comes 
through in a shirt from some other country. What is the best 
vehicle to do that? Because I am all for it, but I want to see 
how we can implement that.
    Mr. Campbell. Sure. In terms of importation of goods, which 
is under the Department of Homeland Security----
    Mr. Meadows. Right.
    Mr. Campbell [continuing]. There is a good law on the books 
that needs a little bit of change, and that law is the Tariff 
Act of 1930 that prohibits the importation of goods made with 
forced and forced child labor. And the current way that that is 
implemented is, if there is a reasonable basis to believe that 
your product contains in whole or in part something made with 
forced labor, then customs should detain it at the border and 
request the company to demonstrate, as provided in the 
regulations, to demonstrate that it does not.
    Now, the reasonable basis is a lower standard than probable 
cause.
    Mr. Meadows. Right.
    Mr. Campbell. So what they are looking at is whether there 
is enough information that raises alarm bells with a red flag, 
and then it starts a process where companies then need to go 
back and verify whether or not what they are doing is buying 
goods that are made in part by forced labor.
    In terms of Uzbekistan, I highlight that because it is 
really simple.
    Mr. Meadows. Right.
    Mr. Campbell. Everything from Uzbekistan with cotton comes 
from the forced labor system. When it comes to identifying the 
Uzbek cotton, say, from Bangladesh, I think it is important 
that brands and that the government require its contractors and 
their own subcontractors to identify whether there is Uzbek 
cotton in the Bangladesh factories that they are ordering from 
and to require that.
    So I think there is action that both the government and 
private sector need to take in terms of their own supply chains 
in order to address this problem.
    Mr. Meadows. And if you would, if you would submit to the 
committee in writing some of those recommendations, if you 
would, whether they be for legislation or in terms of areas of 
concerns or ways that we can more properly identify those.
    Last question, Mr. Chairman. As we look at Russia and 
Uzbekistan, the demographics would suggest that a labor market 
is shrinking and will continue to shrink if you just look at 
the overall demographics. Do you believe that that will 
exacerbate this problem of trafficking for labor purposes going 
forward?
    Mr. Campbell. In terms of Uzbekistan, the labor market has 
been decimated because of the forced labor problem. People are 
voting with their feet. They go to neighboring Kazakhstan and 
other----
    Mr. Meadows. Right.
    Mr. Campbell. [continuing]. To try to get away.
    Mr. Meadows. Sure.
    Mr. Campbell. So, yes, absolutely, I think that fixing this 
problem will fix a labor market problem in that country so that 
they can develop sustainably in the long run.
    Mr. Meadows. Would you agree with that, David?
    Mr. Abramowitz. Yes. Mr. Meadows, I think that this is a 
really severe--this is a significant problem. I think, you 
know, one of the reasons that trafficking came to the fore in 
the 1990s was there was this increased amount of labor 
migration and there were unscrupulous people who were taking 
advantage of people who didn't know the language, who could 
easily be put into situations where there is bonded labor, et 
cetera.
    So I think that in a number of these countries where you 
are seeing the labor market shrink, you are going to see 
significant problems increasing, which is why one of our 
emphasis has been on trying to regulate foreign labor 
recruiters. Because companies in these different countries that 
are trying to bring in people to perform these labor contracts, 
often they don't know who is bringing in these laborers. They 
have an intermediary who brings in the foreign laborers, and 
they could say, oh, we didn't know anything about it, we didn't 
realize that their passports were being taken, we didn't 
realize they were paying all these fees. So we are really 
trying to emphasize the responsibility of countries to make 
sure that those foreign labor recruiters are acting in a 
virtuous way.
    Mr. Meadows. Can I ask one more yes-or-no question to each 
one of the panelists? And as it get to this, when we look at 
the tier ranking and if we are to be committed to this 
particular process and truly to making sure that it has weight 
and is part of not only our diplomatic negotiations going 
forward with individual countries, but where we actually put 
teeth to it, do you see that having a significant impact on 
reducing human trafficking, whether it be for sexual purposes 
or for labor? And a simple yes or no, starting with you, Dr. 
Thang, do you see that as being a useful tool?
    Mr. Thang. Yes, it has been proven in many countries that 
governments do care about the ranking.
    Mr. Meadows. Thank you, sir.
    Ms. Scholte. Yes.
    Mr. Campbell. Yes.
    Mr. Abramowitz. Absolutely.
    Ms. Smolenski. Ditto.
    Mr. Meadows. All right. Well, thank you all.
    And thank you, Mr. Chairman. I yield back.
    And I am going to be leaving. I have got another 
appointment. It is not out of a desire or an interest in this 
particular subject. But I want to thank each one of you for 
your testimony.
    Ms. Scholte. I do want to add one really quick point about 
what we were talking about. There is something else here that I 
think just about how important this is. I can tell you from my 
own experience, I know North Korean women that were at the 
point of committing suicide and the only thing that prevented 
them from doing that was when they heard about protests that we 
were having in front the Chinese Embassy to save the North 
Korean refugees. It made them realize that somebody cared about 
them.
    So bringing up these kind of issues and doing the kind of 
action in addressing these, whether it is people, Vietnamese, 
in Russia, or where it is people in Uzbekistan, when they hear 
that people like yourselves are speaking out and taking action, 
it really saves people's lives literally and gives them hope.
    Mr. Meadows. Well, if you will take this message, that not 
only do we care but that we are going to do something about 
that. Thank you.
    Mr. Smith. Thank you so much, Mr. Meadows.
    Mr. Weber.
    Mr. Weber. Well, Ms. Scholte, I am going to use what you 
just said to my colleague Mark Meadows here as my first 
question, and I am not quite sure how to phrase it. Without 
using a name, is there an underground movement to harbor these 
women?
    Ms. Scholte. Yes.
    Mr. Weber. To get the word out?
    Ms. Scholte. Well, there is an underground railroad.
    Mr. Weber. Okay.
    Ms. Scholte. As I like to point out, we have plenty of 
Harriet Tubmans. The problem is there are no Raoul Wallenbergs. 
There are no State Department people that are willing to stick 
their necks out to help these people. We are totally reactive 
when it comes to North Korean refugees. We are not proactive at 
all. And I can cite case after case after case. And again, 
there are lots of Harriet Tubmans, there are no Raoul 
Wallenbergs.
    Mr. Weber. Is there a funding mechanism, or is that a 
railroad, is that a group that is able to receive support?
    Ms. Scholte. Yes, but it is through private donations and 
private support.
    Mr. Weber. Okay.
    Ms. Scholte. But I can tell you it is really hard right 
now. We just rescued three orphans. It took us over a year, and 
the person that helped us had five Chinese security people 
following him around, and he had to--I mean, if you can 
imagine, the Chinese are going after these people that are 
trying to save children, save women that are being trafficked, 
and the Chinese are hunting these people down. It is terrible.
    Mr. Weber. So the Chinese just don't want them coming 
across their border because they come across as refugees. Is 
that----
    Ms. Scholte. Right. And they have a relationship with Kim 
Jong Un. I think that they fear that if they showed some 
compassion to these refugees and allowed them safe passage to 
South Korea, that they would be flooded with refugees, and that 
is what they are afraid of. If that happens it may destabilize 
the regime, and they would rather have Kim Jong Un on their 
border rather than a unified South Korea.
    But that attitude is changing in China, I really believe. I 
think the Chinese are at the point where they are really 
getting fed up with the regime in North Korea, particularly 
over the latest provocations.
    And I also want to say, the argument that we are trying to 
make with Chinese that will listen is that they are causing the 
problem, they are exacerbating the problem because they are 
absolving, taking pressure off the regime.
    Mr. Weber. They are aiding and abetting.
    Ms. Scholte. Yeah. And if they were to stop this, then it 
would force North Korea to start to take some reforms so that 
people didn't want to leave in the first place.
    Mr. Weber. Right.
    Ms. Scholte. So they are prolonging the crisis by taking 
that pressure away.
    And also talk to any North Korean. They didn't want to 
leave their homeland. They didn't want to risk their lives. 
They want to go back. They left because of the conditions in 
their country.
    Mr. Weber. Well, and they are leaving, in some of the 
reading, I read that they are leaving in search of food and 
work where they are being told that there is work up there.
    Ms. Scholte. Exactly.
    Mr. Weber. Are we able to get Mrs. Choe's story out?
    Ms. Scholte. Esther. You can call her Esther.
    Mr. Weber. Call her Esther Choe. Okay.
    Ms. Scholte. She is speaking out for her people, so Esther 
will be fine.
    Mr. Weber. Are we able to get her story out?
    Ms. Scholte. Into China?
    Mr. Weber. Into North Korea?
    Ms. Scholte. Into North Korea. Yeah. As a matter of fact, 
the ability for people in North Korea to know what is going on 
has increased dramatically. They think at least 60 to 80 
percent of the population has access to outside information. 
The information revolution has finally hit North Korea, and a 
lot of people know the truth about what is going on.
    Mr. Weber. Are we able to beam radio into there telling 
those kinds of stories, perhaps without names?
    Ms. Scholte. Yes. In fact, I know there were some reporters 
here from both Radio Free Asia and Voice of America that will 
be telling her story and broadcasting that in.
    Mr. Weber. Okay.
    And, Ms. Smolenski, you say in your writings that workers 
in the child welfare system are not able to identify 
commercially or sexually exploited or trafficked children. And 
now you say that about the child welfare system. What about the 
law enforcement?
    Ms. Smolenski. I would say similarly it has been difficult 
for them to identify this child before them as a victim of 
sexual exploitation rather than just a kid who has some bizarre 
story or a criminal.
    Mr. Weber. Who is prostituting themselves?
    Ms. Smolenski. Because she is a prostitute, yes.
    Mr. Weber. You know, coming from the Texas legislature, we 
were able to pass landmark legislation in the 81st session, 
House Bill 4009, where we actually gave HHSC the task of 
building a coalition, via their Web site, where we brought 
together district attorneys, where we brought together county 
sheriffs, DPS, and all the other actors to where we were able 
to start training law enforcement officials to look beyond the 
obvious. To your knowledge, is there a national movement to do 
that?
    Ms. Smolenski. There are points of light around the 
country, and Texas is one of them. Over the years that I have 
been doing this work I do see momentum taking place. And so 
there is, in fact, I believe, a paradigm shift going on before 
our very eyes with law enforcement and child welfare workers 
saying, oh, now I understand what is going on with that kid, 
now I realize this child is somebody entitled to protection, 
not, you know, not prosecution.
    Mr. Weber. Look a little deeper.
    Ms. Smolenski. And Texas has been a great model. There is 
no question about that.
    Mr. Weber. In many ways.
    Mr. Smith. Will the gentleman yield?
    Mr. Weber. Yes.
    Mr. Smith. The gentleman is too modest. Mr. Weber is the 
prime author of the Texas act on----
    Ms. Smolenski. Oh. Congratulations. Thank you.
    Mr. Weber. Thank you. I appreciate that, Mr. Chairman.
    In you all's estimation, if you were king for a day, could 
we take and produce a Web site like that at the national level 
where we enlisted the help of NGOs, where we had--and I forget, 
I think it was Mr. Abramowitz's exchange with Mark Meadows, 
that in spending the money to try to get enough of this done, 
funding and grants, if we didn't have a lot of money, and 
obviously we don't have a lot of money, if we were going to 
build a Web site and build a cohesive organization across the 
country that was able to train and do this, what agency would 
you give that to? And I will ask that of each of you.
    Ms. Smolenski. Well, I am actually very much looking 
forward to this national strategy document that has been 
proposed and it is now in the comment period.
    For children, I would think it would be under HHS, but 
there is no agency that doesn't have a role to play.
    I would also like to comment that I don't think that it 
needs a huge appropriations for us to shift the systems that we 
currently have in place for the protection and identification 
and prevention of child sexual exploitation. It really is 
mostly a matter of training and shifting some resources around 
in some ways. I mean, not that I don't want, of course, a 
robust program of protection for every child.
    But we have to have every school in the United States have 
their teachers knowledgeable, and every law enforcement officer 
and every child welfare worker. And it really doesn't take that 
much. You know, one training and people's eyes are open and 
they say, oh, my God, that is right, now I understand what was 
going on with that child I saw last week or last year, now I 
understand that there is a trafficking problem in our country 
and those children are entitled to protection. I don't think it 
is all about the money. It is about awareness.
    Mr. Weber. Okay. Mr. Abramowitz?
    Mr. Abramowitz. You can play a really critical role. The 
National Strategic Action Plan on Victim Services does try to 
address this issue to some degree. I think that the notion of 
trying to do more training across our law enforcement, the 
spectrum of law enforcement agencies, the Department of 
Homeland Security and the Department of Justice with the FBI 
are both really critical in this area.
    And there is some good work being done in the States, 
including in Texas. I know my colleague Nick Sensley has been 
working with the Federal task force down there on some of these 
issues, but I think that you can really make a difference in 
inputting this plan.
    And just to underline something that Ms. Smolenski said, 
the Alliance to End Slavery and Trafficking had a conference 
call, the first ever, among child welfare agencies around the 
country with other advocates to talk about how, you know, these 
kids are in the system. They are already receiving services.
    Mr. Weber. They have already been identified.
    Mr. Abramowitz. Well, they have been exploited in some way, 
but they are not really seen as trafficking victims, that the 
severe exploitation that they have had is not necessarily being 
identified, and they do need some special services, but they 
are not that different from the services that kids in a good 
system are already receiving. And if you can just try to 
identify them through the training that Ms. Smolenski was 
saying and then provide them some services that are not 
necessarily unequivalent, that are parallel to services they 
already get, you can really make a difference and make sure 
that they don't give up on the system and leave and so on.
    Mr. Weber. Right.
    Mr. Abramowitz. So, I really would commend
    the action plan and think about how you could help get it 
right.
    Mr. Weber. Okay. And then, I am sorry, I don't remember, it 
might have been you, Ms. Smolenski, talked about combining the 
data where we had nationwide data earlier. And my question was, 
who would head that up? Would it be HHSC, would it be the FBI, 
would it be----
    Ms. Smolenski. Actually, I think David said something, as 
we fight over the microphone here. I wanted to say that what we 
need is the kind of data that when somebody asks me, is the 
problem getting worse or better, that there is some basis for 
answering that, because right now I don't have that. We do have 
some generally agreed upon numbers, you know, 200,000 to 
300,000 children at risk, 100,000 sexually exploited probably. 
Statisticians are always stepping up to attack those numbers 
because of the methodology behind them. But really what we need 
is a regular surveillance about what is going on with our kids 
and some ability to measure that this thing we did actually 
helped stop it, helped prevent it, you know, that it had an 
impact and that we should be able to measure those things in 
our policies. And those are the kinds of statistics, I think, 
that we need.
    Mr. Weber. Okay. Thank you.
    Mr. Abramowitz. There is the Human Smuggling and 
Trafficking Center. The Department of Homeland Security has 
theoretically been tasked by the President with trying to do 
some analysis on overall trends. I am not sure they are trying 
to get to a specific number, but really on trends, where the 
flow is going, where can we intervene. And I think this is for 
both domestic and foreign victims. But I am not quite certain 
about how far they have progressed on that. There have been 
efforts to work with them in the past, but I am not sure.
    I was mentioning, I am not sure you were in the room, Mr. 
Weber, there is this idea of having the National Academy of 
Sciences try to do a very comprehensive approach, which they do 
do some work like this, and they apparently are interested. And 
we are waiting for a proposal from them that we could then 
bring to champions to see if they would be interested in 
supporting this.
    Mr. Weber. Oh, okay. And then, finally, I think you, Mr. 
Abramowitz, or somebody said something about the Olympics. They 
are building buildings. And was it China?
    Mr. Abramowitz. In Sochi, Mr. Weber, in the Russian 
Federation who are hosting the Winter Olympics.
    Mr. Weber. You can tell how much I keep up with the 
Olympics. Is there pressure being put on the Olympics not to 
participate in a country that does that?
    Mr. Abramowitz. Yeah. I don't know what the Olympics are 
doing, you know. They have had some of these problems. This is 
becoming an increasing issue where various sporting 
associations, whether it is the International Olympic 
Committee, whether it is FIFA with soccer where there is a lot 
of construction that takes place and then, you know, labor has 
to be imported because they don't necessarily have all the 
labor there to do these large construction projects.
    I don't know what the IOC is doing on this. Certainly the 
State Department has been pushing the Russian Federation to try 
to put in preventative measures. We are looking at the World 
Cup in Qatar, which is quite a ways away, but they are starting 
construction planning right now, and there almost every laborer 
will have to come from outside the country because there is no 
workforce in the Gulf indigenously, so----
    Mr. Weber. But the good news is they can afford that.
    Mr. Abramowitz. Yeah. And hopefully they can afford to do 
it right.
    Mr. Weber. Yeah.
    Mr. Abramowitz. So we actually are wanting to talk to FIFA 
about making sure that they are putting pressure on Qatar to 
make sure that those games are slave free.
    Mr. Weber. And then finally, last question. Is there a 
database of companies that have agreed or signed onto the idea 
that they will not contract to buy materials from another 
country that uses forced or child labor, Mr. Campbell?
    Mr. Campbell. We have been working with many companies who 
have pledged to stop purchasing cotton from Uzbekistan. And 
what I can tell you is, hopefully on behalf of those companies 
we work with, they desperately need the help of the U.S. 
Government as well because the resources of the U.S. Government 
through enforcing things like the Tariff Act and procurement 
will build upon the private sector resources to identify where 
these products are and to clean their supply chains.
    Mr. Weber. And if you had your druthers, if you could put 
sanctions on those Tier III countries, for sure, Tier II also 
perhaps, what would that do to the U.S. economy? Is there any 
kind of guesstimate out there? In other words, you are going to 
say we can't trade with those countries. What does that do in 
the way of our trade imbalance? Anybody know? How much does it 
affect? How much is at stake?
    Mr. Campbell. In terms of Uzbekistan, it will have minimal, 
if any impact at all.
    Mr. Weber. Well, I am talking about all the countries that 
we have talked about, China, North Korea, Russia, and right 
down the line, it has got to be huge.
    Mr. Abramowitz. I think, you know, Mr. Weber, I am not sure 
that is the right way to think about it. The companies need to 
be responsible in terms of trying to figure out what is in 
their supply chain and who they are working with. They already 
have various kinds of auditing requirements that they do to 
make sure that product quality is right, et cetera, and they 
can try to do more to make sure that those companies that they 
are working with and particular products that they are buying 
are ones that--slave free is very difficult, you know, it is 
very difficult to trace all the way down, but you can really 
tolerate no slavery in your supply chain and you can work over 
time to try to change the practices throughout these various 
supply chains, including to all these countries.
    Mr. Weber. Okay. Yes?
    Mr. Campbell. Just to add one point to that. The sanctions 
in terms of the Tariff Act are good sanctions because they are 
targeted. They are not on entire country. So it is when you 
have information that a product is being manufactured with 
forced labor.
    Mr. Weber. Who follows up to track what he is trying to 
track back down to slavery, back down the chain to see. Who 
follows that up? Who researches that?
    Mr. Campbell. In terms of imports, it is supposed to be 
DHS. Often they rely on outside groups like myself to supply 
them the information as we do our own research with researchers 
on the ground. It is intensive research, it is dangerous 
research, and so the more that the U.S. Government can help us 
do that type of research is vital.
    Mr. Abramowitz. At the end of the day, Mr. Weber, the 
companies have to do this themselves and they have to accept to 
accept this responsibility.
    Mr. Weber. Kind of what I am figuring, too.
    Mr. Abramowitz. Yeah. It is not possible for the U.S. 
Government to be looking, you know, under every factory, you 
know, warehouse or in every factory warehouse. They have to be 
really responsible. And they are starting to be responsible. 
Recently California passed a law, the California Supply Chain 
Transparency Act that Chairman Smith is very aware of, which 
just said that companies had to declare what they were doing, 
companies that had over $100 million of sales in California, 
what they were doing to try to make sure that slavery was not 
happening in their supply chains. And we have been doing some 
research, and a number of companies haven't even declared what 
they are doing because it is perhaps a little challenging for 
them to figure out how they are actually monitoring this in 
their supply chains.
    Mr. Weber. Well, my guess is that that brings, it brings 
attention to the matter and brings hope to the women, I think 
you said, Ms. Scholte, just by saying that we were going to put 
pressure on governments and that those victims actually sat up 
and said, hey, somebody is noticing.
    So, all right, I yield back. Thank you, Mr. Chairman.
    Ms. Scholte. I was going to add one thing, too, just 
regarding China. I mean, Harry Wu has done a tremendous amount 
of work with the Laogai Foundation about the Chinese slave 
labor camps and the products and trying to identify products 
that are coming in from those camps, and a very critical 
resource on that issue.
    Mr. Weber. Thank you.
    Mr. Smith. Thank you, Mr. Weber.
    Before we conclude, just a couple of final questions. You 
have been very, very generous with your time. And believe me, 
we will act based on the information you have given, so thank 
you so much.
    Now, you mentioned, Ms. Scholte, Harry Wu. We had a 
hearing--I had it--in 1990s, mid-1990s, and he had six 
survivors of the laogai, including Palden Gyatso, who is a 
Buddhist monk who had been tortured horribly, as were the 
others. We have tried for years to get the U.S. Government to 
do just what, Mr. Campbell, you talked about, how the 
Ambassador from Uzbekistan will go and testify, and apparently 
the Office of the Federal Trade Representative swallows hook, 
line, and sinker false information that is given to them or 
conveyed to them, even though the State Department tends to get 
it right in their human rights report.
    But that said, perhaps you might want to speak to this. It 
seems as if the Smoot-Hawley Act, which is the tariff act that 
precludes the importation of slave-made goods, is never 
enforced or almost never. And I will give you one example, and 
if it takes this, it shows how unenforceable or how customs is 
not doing its job.
    When Frank Wolf and I went to Beijing Prison No. 2, which 
had 40 Tiananmen Square activists, we literally got some jelly 
shoes and some socks that were being made by the convicts and 
brought it here, they were being sold in U.S. department 
stores. We went to the customs people and said, you have got to 
put an import ban on these, and they did.
    But I have met with our trade representatives or our 
customs people in our Beijing Embassy in the past and they are 
like the Maytag repairman. They have no job to do vis-a-vis 
this kind of importation.
    You might want to take this back or give maybe an answer 
now. It would seem as if we have to update our efforts to 
combat this importation capability that goes unused.
    I would point out that Mark Lagon pointed out in his 
testimony that the ILO's 20.9 million people in the world who 
are either human trafficking or forced labor victims, of that 
ILO study he says 2.2 million or over 10 percent are from 
forced labor, and an overwhelming majority of that number comes 
right out of China in their laogai system. And yet how many 
import bans have there been? I don't know of any other than the 
one we are talking about that Wolf and I were able to get the 
Customs Department to do.
    So it is a very serious problem, not just in Uzbekistan but 
again in China, so maybe we need to look at Smoot-Hawley and 
upgrade that legislation.
    I would ask, Ms. Smolenski, you might want to speak to 
this, on Monday I will be at the Ukrainian Embassy for a 
rollout of an effort. They are the Chair in Office of the OSCE 
this year. We have been talking to them for some time about the 
importance of the Airline Ambassadors initiative and the Blue 
Lightning effort to train flight crews and other transport, but 
especially flight crews, on how to spot a trafficker. And it 
has worked. Delta and American are, you know, are well along in 
their efforts to spot people who are trafficking while it is in 
progress. You might want to speak to the importance of rolling 
that out worldwide so that these victims can be protected.
    Ms. Smolenski. Thank you for the opening to talk about the 
code of conduct that has developed for the travel industry. We 
call it the Child-Protection Travel and Tourism Code of 
Conduct, where we ask companies to voluntarily take six steps 
to ensure that no child sex trafficking is taking place on 
their airline, in their hotel, or on their tour. 
Internationally, about 1,000 companies have signed, and we 
finally have some momentum in the United States as well with 
Delta Airlines that has signed the code of conduct, Hilton, 
Wyndham, Carlson companies, and a number of other companies. 
Besides the companies that have, as we call it, gone all the 
way by actually signing the full six-step code of conduct, 
other companies are doing training as well, such as American 
Airlines, I understand.
    So we really think that it is a great model for companies 
to take steps because, while they haven't been dying to talk to 
us about a child trafficking issue that they have in their 
supply chain. When we get in the door with them, they really 
see it is in their best interest to do something like this. So 
it has been quite gratifying in the last couple of years.
    Mr. Smith. Can I just ask you, Mr. Abramowitz, whether or 
not the NGO community fully appreciates and works against the 
one-child per couple policy in China? In and of itself it has 
caused irreparable damage, loss of so many of the girl children 
through sex selection abortion, but the impact that it is 
having on trafficking, which will not abate for decades because 
the missing daughters is a horrific phenomenon that is not 
going to turn around anytime soon, even if they got rid of the 
policy tomorrow.
    I have raised it for years. It took years admonishing the 
TIP Office to look at that, and it wasn't until Ambassador 
Lagon looked at it that we finally got some reporting on just 
how that is a primary cause, not the, but a primary cause of 
why China is becoming the magnet for trafficking, to quote 
Ambassador Lagon. Is it understood?
    Mr. Abramowitz. Thanks, Mr. Chairman. You know, obviously 
you have had several very compelling witnesses who have 
testified while I have been, you know, here and also when I was 
on the committee on this issue. There are obviously a number of 
groups who do focus on this issue.
    I would say in the trafficking community the issue around 
China and Chinese policies has been one that I haven't seen 
very well developed among the trafficking groups. The work I 
have been primarily doing with civil society has been on 
affecting U.S. Government policy as opposed to working with the 
U.N. and others who could, you know, make a difference. But I 
will certainly take this back and we will talk about it.
    Mr. Smith. I appreciate that so much.
    Let me ask you a question in terms of the new legislation, 
which included as a minimum standard the participation and 
inclusion of NGOs in the work. While I do believe that has 
tremendous surface appeal, I am concerned and I think we have 
to be very careful that the State Department doesn't default 
and say, oh, they are working with so-and-so NGO, whether it be 
indigenous or foreign, therefore they get a bit of grade 
inflation in terms of not being dropped to Tier III, for 
example, or into the Watch List if they are currently Tier II.
    You will recall, David, we worked very hard on those 
minimum standards to say how many people are being prosecuted, 
how many people are being convicted, how many actually go to 
jail and for how long. And then, of course, on the protection 
side, what actions are being taken. And I am very worried, 
frankly, that with the best of intentions, that new language 
might have the impact for people within State, maybe not in the 
TIP Office, but others who will say, oh, but they are working 
with so and so. They had an NGO forum, isn't that grand. No, we 
need hard evidence and empirical data that they are serious, 
because the last thing we want is something that is something 
less than faithfully and seriously combatting trafficking.
    Mr. Campbell and then Mr. Abramowitz.
    Mr. Campbell. On that point I think, as applied to 
Uzbekistan, it is vital that they understand when applying this 
what is an NGO, that Uzbekistan is full of government-
controlled NGOs. And so if they are looking at whether 
participation of NGOs, I would like to know from them how can 
you tell if it is a government-controlled NGO in Uzbekistan and 
be very careful.
    Mr. Abramowitz. You know, I think that Mr. Campbell makes a 
great point. You know, in the world I have been working in, 
recently they have a new term for that, GONGOs, government 
NGOs, GONGOs. And clearly this is a significant problem if it 
is applied that way. The minimum standards that were added by 
the act--and, I think, Mr. Chairman, you are right, that if 
there had been a way to get into conference on this, this is an 
area where you could have made a big difference and made the 
bill better, at least ensured that it was tightened up.
    There were some changes, as you know, that were made before 
it got added that did improve somewhat, and they did have this 
provision that was added in about appropriately addressing 
allegations against public officials who are involved in 
trafficking, which is something that we have worked on together 
for a number of years.
    You know, I think that we do need to make sure that the 
partnerships that are used as part of this criteria are 
effective and that they have real outcome-based types of 
objectives within any agreements either with the United States 
or with NGOs so that you can say this is not just cosmetic, 
that there are real tangible outcomes that are supposed to come 
out of these agreements. And if, in fact, the State Department 
is pointing to those kinds of arrangements that don't have 
those kinds of criteria in it, it is very, very worrisome and 
we will have to keep a look at it.
    I am hoping that, you know, Mr. Royce's statement that goes 
to some of those issues will help spur the Department to make 
sure they are applying this in the right way, because obviously 
if there are effective partnerships with NGOs in these 
countries, it can help move things along, but there is 
definitely----
    Mr. Smith. I would be all for that. It was including NGOs 
as a minimum standard. And again the temptation for some who do 
not live with this day in and day out to say, oh, but they are 
working with a very good group called--and just fill in the 
blank. And again delay is denial for a trafficking victim and 
for people who will at some point in the future be trafficked 
if there is not really a determination on the part of that 
country.
    And as you know as well as I, all of us know, you know, the 
Department has abused, in my opinion, and I say this 
respectfully, but it has abused the Watch List. It was never 
intended to be used as it has been used.
    Yes?
    Mr. Thang. Yes. In the context of pressure, I would like to 
suggest that we could use the TIP Reports to give out 
benchmarks that are country specific to those governments 
placed on the Tier II Watch List. These reports contain a lot 
of valuable information that could be used. For instance, J/TIP 
could have gone back for 3 years and extract information from 
the cases that have been featured in their past TIP Reports, 
and there are many cases featured in there. And then just go 
back to that government that is placed on the Tier II Watch 
List and ask them how many among those traffickers are there in 
those cases featured in the TIP Report over the past 3 years? 
How many of them have been investigated or prosecuted? How many 
of the victims in those featured cases have received 
protection, assistance, reintegration, and have had access to 
justice? How many of those NGOs that have exposed those cases 
have been consulted and involved and engaged?
    So instead of just asking those countries to engage their 
civil society and leave it up to them to pick and choose which 
NGOs, and they might take the GONGOs instead of real NGOs that 
have proven the value and proven the good work through those 
cases. There is a lot of information already embedded in the 
TIP Reports. So that suggests that we maybe suggest to the J/
TIP Office to just go back through their past TIP Report and 
their own information. They have the background information to 
support those cases.
    And also, Mr. Chairman, I would like to request your 
approval to include a report that we have prepared for 
submission to the U.N. Human Rights Council in advance of the 
UPR, Universal Periodic Review, of Vietnam relating to human 
trafficking situation in Vietnam as part of this hearing's 
record.
    Mr. Smith. Without objection, so ordered.
    When is the Universal Periodic Review?
    Mr. Thang. It will be January or February of next year.
    Mr. Smith. Okay. Thank you.
    Anybody else like to add anything before we conclude.
    Ms. Scholte. I just want to ask, there is a document that 
we would like to submit that is a listing of the people that 
the Chinese have arrested. We hold them accountable for North 
Korean refugees, humanitarian workers, people who have been 
jailed. We are in the process of updating that and we would 
like to submit it as part of our testimony today.
    Mr. Smith. Without objection, it will be a part, thank you.
    Thank you so much for your testimony, for taking the time 
to prepare very extensive testimonies that are filled with very 
important and actionable information. And this will be the 
first this Congress of a series of hearings on trafficking. You 
got us off to a great start. And I do hope that the State 
Department will be listening. I have a great deal of hope and 
expectation that Secretary Kerry will be very diligent, but I 
hope that what he is fed, the information that gets to his desk 
will be the right information, and that is, I think, the 
challenge that we face.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record Notice 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    Material submitted for the record by Mr. David Abramowitz, vice 
       president, Policy & Government Relations, Humanity United
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




    Material submitted for the record by Nguyen Dinh Thang, Ph.D., 
                  executive director, Boat People SOS
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Material submitted for the record by Ms. Suzanne Scholte, president, 
                     North Korea Freedom Coalition
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
